<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2005</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              


                         TUESDAY, MARCH 9, 2004

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:09 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Stevens, Gregg, Byrd, and Leahy.

                    DEPARTMENT OF HOMELAND SECURITY

STATEMENT OF ASA HUTCHINSON, UNDER SECRETARY, BORDER 
            AND TRANSPORTATION SECURITY DIRECTORATE

               OPENING STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. The hearing will please come to order. 
Today we continue our review of the President's fiscal year 
2005 budget request for the Department of Homeland Security. 
We're specifically considering at this hearing the programs and 
activities within the Border and Transportation Security 
Directorate. Our objective is to provide the resources the 
Border and Transportation Security Directorate requires to 
manage its responsibilities and to carry out its mission 
successfully.
    The President is requesting a total of $14.4 billion in 
discretionary funding for programs and activities managed by 
the directorate, which includes the US VISIT project, Customs 
and Border Protection, Immigration and Customs Enforcement, the 
Transportation Security Administration, and the Federal Law 
Enforcement Training Center.
    I'm pleased to welcome to this hearing the Under Secretary 
for Border and Transportation Security, Mr. Asa Hutchinson. 
Before calling on him, I'm happy to yield to Senator Byrd and 
other senators who may wish to make opening statements. Senator 
Byrd.

                  STATEMENT OF SENATOR ROBERT C. BYRD

    Senator Byrd. Thank you. Mr. Chairman, you are very kind to 
delay the hearing until I arrived, and I say this with respect 
to the other senators as well. I have a problem some mornings 
in getting to my station on time. I hope that in the future you 
will not delay the hearings on my account. Please go ahead, and 
I will understand. You are always punctual, and I would prefer 
that you not delay hearings on my account.
    Welcome, Mr. Under Secretary. Last week, the Department of 
Homeland Security celebrated its first anniversary. Much has 
been accomplished. The integration and restructuring of the 22 
agencies continues. The hard-working men and women of your 
Department continue to perform their important jobs. But I 
remain concerned that there are real vulnerabilities facing 
this Nation that require immediate responses.
    Last December, Secretary Ridge said, quote, ``The strategic 
indicators, including al Qaeda's continued desire to carry out 
attacks against our homeland, are greater now than at any point 
since September 11th.'' So Mr. Chairman, I would think that the 
Administration would want to address such a threat with a 
robust front line of defense. Yet, as I review the budget, I 
find numerous examples of a defense that relies more on paper, 
more on studies, more on reports, rather than on the layered 
defense that the President and the Secretary often describe in 
their homeland security speeches.
    Let me just give a few examples. More than 5.7 million 
containers are brought into this country each year through our 
ports. Yet, we inspect only 5 percent of these. Most American 
air passengers would be shocked to learn that, while they and 
their baggage are subjected to often rigorous inspections, the 
vast majority of the cargo carried in the belly of the plane in 
which they are flying is not inspected. The Department claims 
that they have a so-called known-shipper program that is secure 
for air cargo, but this is a paper process. TSA personnel 
review paperwork from the shippers rather than the actual 
cargo.
    TSA has yet to even initiate a pilot program for air cargo 
inspection. We approved funds last September to hire 100 air 
cargo inspectors to carry out real inspections and yet, 6 
months later, very few inspectors have been hired.
    On January 5, 2004, the new visa tracking system known as 
US VISIT began operations at 115 airports and 14 seaports. As 
envisioned when first mandated in 1996, this system is supposed 
to track the entry and exit of visa holders and other visitors 
to our country. It has been declared a success by the 
Department, except few realize that, while we are capturing 
data on people entering this country at the 115 airports, we 
are getting voluntary information on people exiting the United 
States at only one airport. We need to do a better job in order 
to know exactly who is exiting, as well as entering, the United 
States.
    At the same time, we need to ensure that sufficient funds 
are provided to integrate the various existing biometric 
databases. We need to make sure that the US VISIT system and 
the Border Patrol IDENT system are compatible with the FBI's 
Integrated Automated Fingerprint Identification System.
    Last year, pursuant to the Maritime Transportation Security 
Act, U.S. ports were required to submit security plans to the 
Department. But to actually make this country safer, money must 
be provided to help the ports implement those plans. Instead, 
the President is proposing to cut port security grant funding 
by over 60 percent.
    The Federal Air Marshal Service did not have sufficient 
resources this year to maintain the number of air marshals on 
targeted domestic and international flights, and because the 
Administration has proposed no increase for next year, a bad 
problem could become worse next year.
    I want to make sure that this subcommittee and this 
Congress provide real homeland security to the American people, 
not just assurances on paper. The President has told his 
agencies not to seek supplemental appropriations this year, but 
I don't think that homeland security can wait. To this end I 
will be sending a letter to the Secretary today urging him to 
propose a reallocation of existing resources from nonessential 
pay accounts to increase funding for port security grants and 
for the Federal Air Marshals Program right away. I will be 
discussing these issues today and I'm looking forward to 
hearing from our witness on these and other issues.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator Byrd. Senator Leahy.

                 STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Thank you, Mr. Chairman. I know I've served 
with both of you for well over a quarter of a century on this 
committee, and I couldn't help but think at the beginning of 
it, it's nice to know that there are a few of us who still show 
senatorial courtesies, and both the senior senator from 
Mississippi and the senior senator from West Virginia 
constantly show those courtesies, and I appreciate that.
    Mr. Secretary, I enjoyed chatting with you this morning 
earlier. Sometimes people forget that, along with all the 
serious matters, we have even more serious matters, like how 
are the children, how are the grandchildren, and a lot of 
things like that to catch up on. And of course, I see the Under 
Secretary both in this committee and also in the Judiciary 
Committee. And I told you before, you have one of the most 
challenging jobs in the Department of Homeland Security, and I 
am grateful for your accessibility to Congress during the 
Department's first year. There were some who thought when you 
formed the new department you would no longer want to be 
accessible, and I think your own experience here on the Hill 
does you well, because you have always been accessible.
    I told you when you first took the job you were lucky 
because you would be inheriting a number of fine employees in 
my home State of Vermont where we have a very substantial 
presence. You told me at that time you would make good use of 
them, and you have kept your word. I am particularly pleased 
that you and Michael Garcia, who also traveled with you to 
Vermont, have recognized the tremendous value of the Law 
Enforcement Support Center, LESC, in South Burlington, Vermont. 
This LESC provides information to State and local police 
departments throughout the Nation regarding immigration status 
and identities of aliens suspected, arrested or convicted of 
criminal activity, and operates 24 hours a day 7 days a week.
    I was over there after a large snowfall and someone said, 
what do you do in a case like this where you have close to 3 
feet of snow that fell in the last 24 hours. And they said, 
well, you know, what do you do about getting to work? And they 
said what do you mean, this shift comes in at this time and 
this shift comes in at this time. I think it took them a while 
to realize that the people from out of State were asking what 
do you do about the snow. Well, you shovel it and you go to 
work. But, the other thing that was most interesting was that 
they accept the dedication and responsibility for the country, 
and I know it makes me very happy and I'm sure it does you and 
the others.
    I joined Mr. Garcia last August to announce expanding 
capabilities in the LESC and I look forward to continue working 
on this project.
    I have a couple concerns and I will submit some questions 
on the record. I'm concerned about the Department's response to 
those who fled Haiti in recent weeks. I think Haitians 
intercepted at sea receive entirely different screening. All 
interdicted Cubans are individually interviewed regarding fear 
of persecution. I understand that only those Haitians who 
loudly protest, the so-called shout test, receive such an 
interview. And when you see on the television news every night 
Haitians being shot down in the street, you have to have some 
concern. I understand also the Department intends to continue 
regular deportation proceedings against Haitians in the United 
States, notwithstanding the strife and basic lack of law and 
order in Haiti. I join with Senators Kennedy and Durbin and 
will have some questions on that.
    Secondly, I know Congress has set an October deadline for 
Nations who take part in the visa waiver program to include 
biometric identifiers in their passports. It is a very helpful 
thing to have but I understand that only a small handful of the 
27 countries that are participating in the program are expected 
to meet the deadline. As a result, visitors from these 
countries will need to either obtain visas, which would 
dramatically increase the workload here and abroad for our 
officials and certainly would dramatically impact tourism, and 
might lead to reciprocal action against American travelers. One 
of my questions will be whether we should extend that deadline, 
or whether you think such an extension would compromise our 
security.
    And lastly, I know that you're working to meet another 
deadline that Congress has established, the December 31st 
deadline for screening travelers in our 50 busiest land port of 
entries. Many worry whether that can be done, and whatever you 
want to add on to that I would appreciate.
    Mr. Chairman, as I mentioned, very soon I have to go to 
another committee, but again, the Under Secretary has always 
been responsive in questions and so with your permission, I 
will insert something for the record.
    Senator Cochran. Without objection, it will be printed in 
the record. We appreciate you being here and your work for this 
committee.
    The subcommittee has received statements from Senators 
Campbell and Hollings which will be placed in the record.
    [The statements follow:]

         Prepared Statement of Senator Ben Nighthorse Campbell

    Thank you Mr. Chairman and I'd like to thank our witnesses for 
taking the time to come talk to us today.
    My constituents and the entire Nation are looking to this Committee 
to provide the necessary funds to protect those who travel our 
country's skies, seas, rails, and roads. It is your directorate that is 
responsible for making sure that law enforcement officials and first 
responders have the technology they need to ensure our country's 
safety.
    This country is the world leader in technology development and that 
is to our advantage when protecting the nation. But as I fly back to 
Colorado every weekend, and wait in line at the baggage screeners and 
walk through the metal detectors, I wonder if these procedures really 
ensure my safety. I wonder if we are really using the best technology 
available.
    Colorado is the home of many small technology companies that, in my 
view, have developed a number of cost-effective, time saving, and life 
saving technologies that I am certain have not yet gotten into the 
right hands. I have done my best to send them to meet with your 
directorate, but I don't know the extent of their success. I hope that 
you will elaborate on how you work with small technology firms.
    I also know that with some of the technology chosen, that you are 
doing your best to watch the bottom line. But when you are doing the 
job of equipping those who protect us, shouldn't they have the best 
technology available, not just the cheapest?
    I support every dollar that Congress has given to the Department of 
Homeland Security. I believe that we have made great advancements 
quickly by upgrading security procedures, response plans, and better 
training personnel to react and respond in times of need. But I think 
that we need to pay more attention to whether this money is being put 
to the best use possible.
    Again, thank you, Mr. Chairman. I look forward to hearing the 
testimonies of our guests and I will have a number of questions to ask 
at the appropriate time.
                                 ______
                                 

            Prepared Statement of Senator Ernest F. Hollings

    I am pleased that the Department of Homeland Security has taken 
administrative control of the Federal training facility in Charleston. 
As you know, a temporary overflow training facility for basic training 
of Border Patrol recruits started in 1996 at the old Navy Base in 
Charleston. Legislation we passed here in Congress drastically 
increased the Border Patrol training needs, as it significantly 
increase the number of agents deployed to protect our borders. The 
Charleston facility was due to close in 2004, but through the fiscal 
year 2003 Commerce, Justice and State Appropriations Bill, we 
officially designated Charleston as a permanent Federal training 
center.
    We also secured funding--over $14 million--for the Charleston 
Border Patrol Academy to improve the infrastructure for the training 
center. After we committed to these improvements, the Department of 
Homeland Security took ownership of the facility through the Federal 
Law Enforcement Training Center (FLETC), which suited me.
    After a year of cooperation, coordination and our support the Coast 
Guard Maritime Law Enforcement Academy was officially established in 
February 2004 at FLETC-Charleston by the Coast Guard Commandant. We 
have been able to direct some important functions to Charleston, and 
this is one of them.

    Senator Cochran. Mr. Secretary, we have your prepared 
statement, which we appreciate your submitting to the 
committee. It will be printed in the hearing record, and we 
invite you to make any remarks you think will be helpful to the 
committee's understanding of this budget request. You may 
proceed.

              STATEMENT OF UNDER SECRETARY ASA HUTCHINSON

    Mr. Hutchinson. Thank you, Mr. Chairman, and Senators Byrd 
and Leahy, thank you for your gracious comments this morning. 
We appreciate what I view as a partnership with this committee, 
your counsel, advice, and admonitions from time to time are 
helpful, and certainly we receive those with appreciation. I 
also want to thank the committee for most recently approving 
the US VISIT fiscal year 2004 spend plan that allows us to move 
forward. Thank you for your prompt action on that request and 
again, the admonitions that you gave.
    With your support, I believe we have made some significant 
progress toward meeting our congressional mandates for homeland 
security and for meeting the expectations of the American 
people. The $16 billion budget request for BTS marks a 10 
percent increase over the 2004 budget and is a reflection of 
this President's commitment to border security, transportation 
security, and other areas of enforcement within my arena.
    BTS, as you know, has a number of agencies within it. It 
comprises the largest directorate with 110,000 employees that 
are doing an outstanding job day in and day out. If you look 
back over the last year, one of the major initiatives that we 
have carried out would be strengthening our border security 
through the one face at the border initiative--training 
officers to perform three formerly separate inspection 
functions. We've also expanded the container security 
initiative, and the Customs-Trade Partnership Against Terrorism 
program provides security in the global supply chain.
    I believe that we have increased the safety of air travel 
by increasing the effectiveness of the Federal Air Marshal 
program, establishing a Federal flight deck officer program, 
increasing the baggage screening efforts, developing a 
comprehensive air cargo security plan, and new requirements in 
that regard. We have developed new technologies such as US 
VISIT and the SEVIS, or the program that identifies and tracks 
foreign visitors and students. We have pursued and increased 
our investigatory capabilities for identifying, apprehending 
and removing those who violate our immigration laws, illegally 
employ undocumented workers, and traffic in human cargo.
    So, we have done a number of things through the last year, 
including increasing our training capabilities through the 
Federal Law Enforcement Training Center. If you look at the 
2005 budget that the President has submitted, it continues to 
build upon this foundation by increasing our efforts to secure 
our borders and our transportation systems.
    Under the Customs and Border Protection budget we seek an 
overall increase of $223 million, including a $25 million 
increase for the container security initiative that allows us 
to do a more expansive job of prescreening cargo before it 
reaches our shores. It provides for a $15 million increase in 
the Customs-Trade Partnership Against Terrorism program. A $20 
million increase for improvements in the National Targeting 
Center, which has been a very effective risk assessment tool 
for arriving international air passengers and shipment of goods 
to our country. Our US VISIT program will continue to work to 
complete the first increment of US VISIT, as well as expand its 
capabilities to the 50 busiest land ports, and the budget that 
has been submitted for fiscal year 2005 is consistent with the 
development of that program.
    To date, the program has had a significant amount of 
success in increased security with 125 criminal watch list 
alerts, 51 criminal apprehensions, and we have processed over 2 
million visitors since January 5.
    Across BTS agencies over $100 million has been requested 
for detection systems between our ports of entry, including 
expansion of the P-3 aircraft which provide important detection 
and monitoring capabilities. We've continued to build on our 
aviation security with a TSA budget that has an increase of 
$892 million, which is 20 percent over the comparable 2004 
level, and includes $20 million for credentialing systems such 
as the transportation worker identification card, hazardous 
materials transporters, and foreign student pilots. It includes 
funding for the CAPP II program and very importantly, $159 
million to enhance the training programs for our screener 
personnel.
    I'm very pleased with the submission on the ICE budget that 
provides an increase of $300 million over 2004 that will allow 
us to enhance our enforcement efforts, including $10 million to 
support the new Visa Security Unit program that will help us 
overseas to add a security perspective to the visa issuance in 
working with the State Department. We've enhanced by $23 
million our capability for investigations performed by special 
agents devoted to immigration enforcement, including 
establishing stronger work site enforcement, consistent with 
the President's proposal for a temporary worker program. It 
also includes $100 million for increase in detention and 
removal of illegal aliens, a very important part of our 
efforts.

                           PREPARED STATEMENT

    Finally, the Department's infrastructure is supported by 
the investment in the Federal Law Enforcement Training Center 
to support our security and training programs, not just for 
homeland security agencies, but for a broader range of Federal 
law enforcement agencies that utilize its services. The budget 
request provides for a $5 million increase in funding for that 
agency.
    So with that outline, Mr. Chairman, I look forward to the 
discussion this morning and look forward to the continued 
cooperation with this committee.
    [The statement follows:]

                  Prepared Statement of Asa Hutchinson

    Mr. Chairman, Senator Byrd and Members of the Subcommittee: I am 
honored and pleased to appear before the Committee to present the 
President's fiscal year 2005 budget for the Border and Transportation 
Security (BTS) Directorate. I want to thank you for your strong support 
of BTS components, especially for the resources you provided in fiscal 
year 2004, and look forward to working with you in the coming months on 
our fiscal year 2005 budget.
    The $16 billion BTS request represents a 10 percent increase in 
resources over the comparable fiscal year 2004 budget, and reflects the 
Department's strong and continued commitment to the security of our 
homeland. The fiscal year 2005 budget is a $1.5 billion increase over 
fiscal year 2004, and it includes funding for new and expanded programs 
in border and port security, transportation security, immigration 
enforcement, and training.
    The Border and Transportation Security Directorate made great 
strides during the first year of operations. Over 110,000 employees and 
a budget of $14 billion were reassembled and brought under BTS. The 
Directorate was quickly established and successfully began operations 
on March 1, 2003--bringing together the legacy agencies and programs 
that now make up BTS--Customs and Border Protection (CBP), Immigration 
and Customs Enforcement (ICE), Transportation Security Administration 
(TSA), Federal Law Enforcement Training Center (FLETC), and the United 
States Visitor and Immigrant Status Indicator Technology (US VISIT) 
program. Customs, border, immigration, transportation security and 
training activities have been rejuvenated under their new agencies, 
increasing the effectiveness of our dedicated employees. BTS continues 
to create new ways to enhance security by sharing information and 
intelligence and by coordinating operations within the Department among 
levels of governments, and horizontally across agencies and 
jurisdictions. Through the hard work of our dedicated and talented 
employees, America is more secure and better prepared than we were 1 
year ago.
    In addition to the stand-up of the Directorate, we have achieved 
many results since our creation, including:
  --providing fused and enhanced security coordination among our 
        components and other Federal, State and local security 
        providers and stakeholders, especially during Operation Liberty 
        Shield and the recent holiday season, including the 
        establishment of the Transportation Security Coordination 
        Center (TSCC) to coordinate intelligence sharing and command 
        and control activities for our national transportation sector;
  --strengthening border security through the ``One face at the 
        border'' initiative, which is cross-training officers to 
        perform three formerly separate inspections--immigration, 
        customs, and agriculture--allowing us to target our resources 
        toward higher risk travelers;
  --expanding the container security initiative (CSI) and Customs-Trade 
        Partnership Against Terrorism (C-TPAT) to provide improved 
        security to the global supply chain;
  --instituting new cutting edge systems, like US VISIT, to identify 
        and track foreign visitors and students, recording the entry 
        and exit of foreign visitors to strengthen our immigration 
        system;
  --safeguarding air travel from the terrorist threat by: increasing 
        the presence of Federal Air Marshals, establishing a Federal 
        Flight Desk Officer program, instituting 100 percent checked 
        baggage screening, issuing new regulations for enhanced air 
        cargo security, expanding the use of explosives detection 
        canine teams, checking names of master cockpit air crew lists, 
        and streamlining and training Federal passenger and baggage 
        screeners deployed at airports across the Nation;
  --eliminating potential weaknesses in security by suspending transits 
        without visa (TWOV);
  --negotiating an agreement with the European Union with respect to 
        Passenger Name Record (PNR);
  --negotiating a memorandum of understanding with the Department of 
        State to ensure a coordinated and increasingly effective visa 
        issuance process; and
  --establishing a visa security office to provide oversight and 
        guidance on Section 428 of the Homeland Security Act, including 
        establishing two offices in Saudi Arabia to review 100 percent 
        of visa applications;
  --standing up a SEVIS tiger team to process foreign students during 
        the summer 2003 back-to-school season; and
  --effecting improvements in security capabilities, capacity, 
        training, and infrastructure.

Fiscal Year 2005 Budget Request
    The fiscal year 2005 budget for the Directorate builds upon the 
significant investments and accomplishments effected and in progress.

Strengthening Border and Port Security
    Securing our border and transportation systems continues to be an 
enormous challenge. Ports-of-entry (POE) into the United States stretch 
across 7,500 miles of land border between the United States and Mexico 
and Canada, 95,000 miles of shoreline and navigable rivers, and an 
exclusive economic zone of 3.4 million square miles. Each year more 
than 500 million people, 130 million motor vehicles, 2.5 million 
railcars, and 5.7 million cargo containers must be processed at the 
border and POE.
    In fiscal year 2003, CBP processed 412.8 million passengers and 
pedestrians arriving in the United States--327 million at land borders, 
70.8 million at international airports, and 15 million at sea ports. 
The fiscal year 2005 CBP budget seeks $2.7 billion for border security 
inspections and trade facilitation at ports of entry and $1.8 billion 
for border security and control between ports of entry.
    During fiscal year 2005, we will continue to strengthen our border 
and port security. The CBP budget seeks an overall increase of $223 
million to maintain and enhance border and port security activities, 
including the expansion of pre-screening cargo containers in high-risk 
areas and the detection of individuals attempting to enter the United 
States illegally.
    Specifically, the budget includes an increase of $25 million for 
the Container Security Initiative (CSI) which focuses on pre-screening 
cargo before it reaches our shores, and an increase of $15.2 million 
for Customs Trade Partnership Against Terrorism (C-TPAT). C-TPAT 
focuses on partnerships all along the entire supply chain, from the 
factory floor, to foreign vendors, to land borders and seaports. As of 
late January 2004, nearly 3,000 importers, 600 carriers, and 1,000 
brokers and freight forwarders are participating in C-TPAT, surpassing 
the Department's original goal of participation of the top 1,000 
importers.
    As well as continuing development for secure trade programs, the 
budget also seeks an increase of $20.6 million to support improvements 
for the National Targeting Center and for multiple targeting systems 
that focus on people, cargo and conveyances. These systems use 
information from diverse sources to provide automated risk assessments 
for arriving international air passengers, shipments of goods to our 
country, and land border passenger traffic.
    The United States Visitor and Immigrant Status Indicator Technology 
(US VISIT) program's goals are to enhance the security of our citizens 
and our visitors; facilitate legitimate travel and trade across our 
borders; ensure the integrity of our immigration system; and respect 
the privacy of our welcomed visitors. US VISIT represents a major 
milestone in our efforts to reform our borders. We deployed the first 
increment of US VISIT on time, on budget, and met the mandates 
established by Congress, including biometric capabilities ahead of 
schedule. The budget seeks a total of $340 million in fiscal year 2005, 
an increase of $12 million over the fiscal year 2004 level for the 
program. As of late February, over 1.5 million foreign nationals had 
been processed for entry, generating 125 watch list alerts, and 
resulting in 51 criminals apprehended. The 2005 funding will further 
strengthen border security, and enable modernization of border 
management systems and capabilities. Specifically, funding will be used 
to expand the entry system to 115 land POEs, beyond the busiest 50 that 
will be covered by the US VISIT program in fiscal year 2004. Funding 
will also be used to expand implementation of an exit solution at our 
air and seaports. Alternatives are being developed and tested, and will 
be implemented at 80 airports and 14 seaports in fiscal year 2004.
    Within the BTS component budgets, over $100 million is included for 
detection systems, a critical element in the war on terrorism. The CBP 
budget seeks an increase of $64.2 million to enhance land-based 
detection and monitoring of movement between ports, and $10 million to 
deploy and operate unmanned aerial vehicles. In order to protect the 
homeland against radiological threats, the CBP budget seeks $50 million 
for radiation detection monitors and equipment. The ICE budget request 
includes an increase of $28 million to increase the flight hours of P-3 
aircraft by 200 percent. In addition to providing vital detection and 
monitoring capabilities in the source and transit zones containing 
mountainous terrain, thick jungles and large expanses of water, the P-3 
provides an important capability for domestic airspace security 
missions.

Improving Aviation Security
    We have made great strides in rebuilding and reinvigorating of our 
aviation transportation security system. We have made significant 
investments in baggage screening technology--over $2 billion to 
purchase and install Explosives Detection Systems machines (EDS) and 
Explosives Trace Detection machines (ETD) to the nation's airports--and 
established a robust technology research and development program. We 
have deployed 45,000 Federal passenger and baggage screeners at the 
Nation's airports, expanded the National Explosives Detection Canine 
Team program, and trained pilots to be Federal Flight Deck Officers.
    The fiscal year 2005 TSA budget seeks an increase of $892 million 
to enhance transportation security, a 20 percent increase over the 
comparable fiscal year 2004 level. Specifically, to strengthen 
interwoven, concentric layers of transportation security, the budget 
requests increases of $20 million for credentialing systems (i.e., 
Transportation Worker Identification Credential, Hazardous Materials 
transporters, and foreign student pilots); $25 million for operating 
the Computer Assisted Passenger Prescreening II System; and $113 
million to and improve screener performance through training and the 
deployment of information technology. A substantially improved air 
cargo security and screening program was implemented last year, and the 
$85 million request sustains funding to continue program enhancements 
and associated air cargo screening technology research and development. 
We are providing another $400 million for EDS equipment to improve 
airport operational efficiency.

Enhancing Immigration Security and Enforcement
    The ICE budget request of $4 billion, which is an increase of $300 
million over the fiscal year 2004 level, seeks to strengthen 
immigration security and enforcement. Comprehensive immigration 
security and enforcement extends beyond efforts at and between the 
ports-of-entry into the United States. It extends overseas, to keep 
unwelcome persons from arriving in our country, and removing persons 
now illegally residing in the United States. Pursuant to section 428 of 
the Homeland Security Act, and the Memorandum of Understanding between 
the Departments of Homeland Security and State, the ICE fiscal year 
2005 budget request of $14 million includes an increase of $10 million 
to support a new visa security unit (VSU). The BTS personnel stationed 
at overseas posts, including Saudi Arabia, will continue to work 
cooperatively with U.S. Consular Officials to enhance security and the 
integrity of the visa process.
    As announced on January 7, 2004, the Administration is committed to 
enhanced immigration integrity and border security. My Directorate will 
be working to implement a program that meets those goals, while 
benefiting the economy. Current ICE immigration enforcement programs 
and the enhancements in the fiscal year 2005 ICE budget request support 
and are consistent with a number of elements in this initiative, 
particularly worksite enforcement. Specifically, the fiscal year 2005 
request includes an increase of $23 million to more than double the 
number of investigations currently performed by ICE--providing an 
additional 200 investigators. With these resources, ICE will be able to 
facilitate the implementation of the President's temporary worker 
program initiative by establishing a traditional worksite enforcement 
program that offers credible deterrence to the hiring of unauthorized 
workers.
    The request also includes nearly a $100 million increase for the 
detention and removal of illegal aliens. Detention and Removal of 
illegal aliens present in the United States is critical to the 
enforcement of our immigration laws, and the requested funding will 
expand ongoing fugitive apprehension efforts, the removal from the 
United States of jailed illegal aliens, and additional detention and 
removal capacity.
    As part of our overall immigration enforcement strategy, ICE will 
continue to analyze data generated through the Student and Exchange 
Visitor Information System (SEVIS) and US VISIT program to detect 
individuals who are in violation of the Nation's immigration laws and 
pose a threat to homeland security. The fiscal year 2005 budget 
requests $16 million to support these compliance efforts.
    Immigration fraud poses a severe threat to national security and 
public safety because it enables terrorists, criminals, and illegal 
aliens to gain entry and remain in the United States. An aggressive, 
focused, and comprehensive investigations and prosecutions program will 
detect, combat and deter immigration fraud. The $25 million included in 
the fiscal year 2005 budget will provide stable funding to the benefits 
fraud program by replacing funding previously provided through the 
Immigration Examinations Fee Account.

Building Departmental Infrastructure
    The fiscal year 2005 request includes an increase of $5 million for 
the Federal Law Enforcement Training Center to support our security 
program enhancements and capability sustainment. The FLETC not only 
serves Federal client groups, but also provides training to State and 
local law enforcement providers. In addition, to enhance global law 
enforcement efforts, FLETC develops and offers a curriculum that 
includes international applications.

Conclusion
    Our homeland is safer and more secure than it was a year ago, 
thanks in part to the dedicated and talented team we have in BTS which 
excels at coordinating and effecting cross-component activities. 
Through their efforts, and with the support of our partners in 
government and the public and private sectors, we will continue to 
substantially improve our nation's security. I thank the Congress for 
its support, which has been critical to bringing us to this point. With 
your continued support for our fiscal year 2005 budget, we will 
continue to improve the security of our nation.
    I am grateful to be here today to outline our efforts for a safer 
and more secure America. Thank you for inviting me to appear before you 
today, and I look forward to answering your questions.

                                US VISIT

    Senator Cochran. Thank you very much, Mr. Secretary.
    Last week President Bush met with President Vicente Fox of 
Mexico and announced that citizens of Mexico who hold border 
crossing cards and are frequent visitors will not have each 
entry recorded into the US VISIT database. Can you tell us more 
about how this new policy will be implemented by your 
directorate?
    Mr. Hutchinson. Thank you, Mr. Chairman. I would emphasize 
that for those who have a border crossing card, we already have 
their fingerprints in our database and they have undergone a 
terrorist screen or a security screen in order to be able to 
receive this border crossing card. And, if they would utilize 
this card for long-term visa purposes they would be enrolled in 
US VISIT just like our visitors are at the airports. It will 
take us a little bit longer to develop a program in which we 
can record each entry and exit and we hope to utilize radio 
frequency technology to pilot and to develop that capability. 
Our concern, of course, would be that with over 100 million 
crossings of Mexicans using this laser visa or border crossing 
card, it would be difficult to enroll each one of them in US 
VISIT under the current circumstances. So, that is the 
consideration for not tracking them in that fashion but rather, 
using it as we have at our airports and seaports, for those who 
would utilize it as a regular visa to stay in our country for a 
longer period of time.
    Senator Cochran. The budget states that an exit capability 
is expected to be deployed at up to 80 airports and 14 seaports 
this year. Can you give us a report on the exit pilots that are 
currently running as a part of US VISIT?
    Mr. Hutchinson. Yes, Mr. Chairman, and before I answer that 
specifically, I want to emphasize that we have an exit 
capability for all our airports and seaports through the APID 
or advanced passenger information database, transmitted from 
the airlines. So, we have a record of the departure of those 
people who would be foreign citizens leaving our country. 
Therefore, we could track whether they have overstayed their 
visas or not. So we have that capability biographically. What 
we are piloting in the Baltimore International Airport is an 
exit capability that will also biometrically confirm their 
departure from this country.
    It is being piloted in Baltimore and thus far, it has been 
a very successful program. I heard testimony from the airport 
director there who applauds the program and the cooperation we 
have had, and particularly the fact that we have personnel 
there that will help a foreign visitor to utilize the system.
    We are piloting other different ways to implement an exit 
procedure. Those will be developed and put into place by June 
of this year, so by the end of this year we hope to have a 
complete evaluation of what is the best exit procedure for our 
airports that would expand upon our current biographical 
capability.
    Senator Cochran. The US VISIT program office is reviewing 
the proposals for the prime integration contract. What are the 
plans to meet the deadline for deploying the entry and exit 
capabilities to the 50 busiest land ports by the end of this 
calendar year?
    Mr. Hutchinson. We do anticipate that the integrator 
contract would be awarded in the May time frame. That still 
leaves us a significant amount of time to utilize their 
capabilities. But in the meantime, through our US VISIT program 
office we're able to continue to deploy to the 50 busiest land 
ports our exit solution that would be used as secondary, 
similar to what we're doing at our airports. And so a great 
deal of work can be done to fulfill the mandate this year even 
before the integrator is brought on board. What they will 
primarily focus on would be looking at the radio frequency 
technology and how that can be used to quickly track the entry 
and exit without clogging those borders. We have some 
preliminary ideas, but the integrator support will be very 
critical in developing a final solution on that.
    Senator Cochran. Senator Byrd, I'm prepared to yield to you 
for any questions you have. I noticed the presence of the 
distinguished senator from New Hampshire. Before proceeding, I 
was wondering if you could yield to him for any opening 
statement.
    Senator Byrd. Yes, I would like to hear his opening 
statement.
    Senator Gregg. I have no opening statement, Mr. Chairman.
    Senator Cochran. Senator Byrd.

                                  TSA

    Senator Byrd. Thank you. Mr. Secretary, your TSA budget 
proposal for 2005 requests just $143 million out of a total 
request of $5 billion for non-aviation related activities. The 
Aviation and Transportation Security Act requires that the TSA 
protect all modes of transportation, not just aviation. Take 
mass transit for an example.
    On February 6, individuals opposed to policies of the 
Russian government exploded a bomb deep inside a tunnel of the 
Moscow subway system, killing more than 40 people. The Tokyo 
subway was attacked with sarin gas in 1995. Subsequent analysis 
of the attack concluded that up to 8,000 deaths could have 
occurred if the attack had been executed as planned. We should 
not focus all of our attention on the threats posed by the 9/11 
attacks. There continues to be significant threats to the New 
York City Subway System, the Washington Metro, the Chicago 
Transit Authority, and other mass transit systems.
    In testimony to the Senate Intelligence Committee on 
February 24, FBI Director Mueller stated that our 
transportation systems across the country, particularly the 
subways and bridges in major cities, as well as airlines, have 
been a continual focus of al Qaeda targeting. Despite this 
reality, there is a huge disparity between what you have 
requested for aviation, compared to what you have requested for 
the other modes of transportation.
    You have made no proposal for mass transit security grants, 
no request for bus security grants, no request for truck 
security grants, and port security grants, have been reduced 
from the $124 million which Congress provided to only $46 
million, and the Department proposed to transfer away from TSA 
that remaining grant program to an agency with no 
transportation security expertise.
    Now, how can you fulfill the mandate of protecting all 
modes of transportation without requesting funds for this 
purpose? Given what you are proposing, how do you intend to be 
accountable to the American people for ensuring transportation 
security?
    Mr. Hutchinson. Thank you, Senator Byrd, and we agree with 
your concerns about the other modes of transportation and that 
they should not be neglected. We are looking at a different 
type of relationship and solution for the other modes of 
transportation versus our 100 percent inspection regime, a 
focus in aviation security. And so at TSA, we do have a 
relationship with the different modes of transportation. We are 
working on assessments and standards setting. We're working 
with other directorates and other agencies to accomplish the 
security that you highlighted.
    For example, the subways, that is a transportation system 
with a number of players in that arena, including the IAIP 
directorate, or Information Analysis and Infrastructure 
Protection directorate, and our Science and Technology 
directorate, looking for some technological solutions to help 
detect and prevent those type of harmful attacks. And so we are 
coordinating our efforts with them, as well as working with our 
TSA officials who have that standard setting responsibility. We 
will continue to develop that relationship and seek additional 
funding as is necessary to expand that mission.
    Senator Byrd. Mr. Secretary, you haven't answered my 
question. I'm concerned about the lack of funding for the 
security of those other modes of transportation. I listened 
very carefully, but I didn't get an answer to my question.
    Mr. Hutchinson. Would you like me to proceed again, Senator 
Byrd?
    Senator Byrd. Yes. Would you like me to ask the question 
again?
    Mr. Hutchinson. I think I got the gist of the question. We 
have a staff at headquarters of 120 inspectors. They are 
charged with the responsibility of looking at these other modes 
of transportation, working with local communities, setting 
standards for them, and working with other agencies--for 
example, the Department of Transportation. We are protoneuron 
with the industry stakeholders as well for information sharing 
with regards to threats to these different modes of 
transportation. We are looking to the Science and Technology 
Directorate to identify the security threat and developing the 
technology that would help detect those hazardous materials 
threats to our subway systems. And the same is true for the 
other modes of transportation that you mentioned.
    Senator Byrd. I don't think I got the answer yet. I'll ask 
the question again. You may not want to answer it, and I say 
this respectfully to you.
    Your TSA budget proposal for fiscal year 2005 requests only 
$143 million out of a total request of $5 billion for non-
aviation related activities. The Aviation and Transportation 
Security Act requires the TSA to protect all modes of 
transportation, not just aviation. How can you fulfill the 
mandate of protecting all modes of transportation without 
requesting funds for this purpose? Given what you are 
proposing, how do you intend to be accountable to the American 
people for ensuring transportation security?
    I believe it is a mistake to weaken the non-aviation 
functions of TSA. On February 25, Congressman Sabo and I wrote 
to Secretary Ridge and urged him not to transfer the TSA grant 
programs, port security grants, truck security grants, bus 
security grants, and Operation Safe Commerce, as well as FEMA's 
Emergency Management Performance grants from TSA to the offices 
of State and local government coordination. The deadline for 
making that transfer could be as early as March 26th, and I 
want to personally make the same points to you. I urge you and 
the Secretary to give serious consideration to the concerns 
expressed in our letters.
    Mr. Hutchinson. And Senator Byrd, I very respectfully agree 
with your concerns and clearly you could look at this as a 
comprehensive solution to security, we're looking at a shared 
responsibility in that regard, and not exclusively that of TSA. 
And we are still sorting through some of that division of 
responsibility. But we believe that the budget allows 
sufficient support from a headquarters level of the standard 
setting, the regulations that need to be looked at, and the 
partnership that we might have with the Department of 
Transportation and with the Coast Guard, who has a major role 
in the mission of port security.
    Now, I realize that there has been some concern expressed 
about the transfer of the grant programs from TSA to the State 
and local administration within the Department, but I have been 
assured and feel confident that we are implementing the steps 
necessary to make sure that the TSA expertise on port security 
is utilized for the administration of those grants.
    Senator Byrd. Mr. Chairman, may I ask another question at 
this point or do you wish to proceed?
    Senator Cochran. Senator Byrd, we've taken up just about 
between 10 and 15 minutes in this round, and I was going to 
recognize Senator Gregg for any questions, and then we have a 
chance for another round.
    Senator Byrd. Thank you.
    Senator Cochran. Senator Gregg.

                                US VISIT

    Senator Gregg. Thank you, Mr. Chairman, and thank you, 
Senator Byrd, for your courtesy. Mr. Secretary, the US VISIT 
program is obviously the core to your effort to try to get some 
control over who's coming into the country and you have already 
explained the program. As I understand the program, basically 
there will be two fingerprints taken, the thumb and----
    Mr. Hutchinson. Two index.
    Senator Gregg. The index fingers of both hands, and that 
will be electronically and digitally taken. And here's my 
question. We spent in another committee, CJS, which I chair, 
and it's a fabulous facility up in West Virginia, a huge amount 
of money, literally hundreds of millions if not billions of 
dollars on developing a fingerprint database for the Nation 
called IAFIS, which is under the control of the FBI. It's my 
understanding that the US VISIT fingerprints will not be 
compatible with that database, that the manner in which the 
fingerprints are being taken is not compatible, without a 
significant amount of increased work load. In other words, the 
turnaround time on an IAFIS fingerprint is very brief. If 
you're fingerprinted under the IAFIS system it's almost an 
instantaneous turnaround time. If you're fingerprinted under 
your system it's 35 times longer, assuming you can do the 
workload at all to get that fingerprint confirmation back, and 
really the two systems aren't compatible, they simply aren't 
compatible.
    I guess my question to you is why would we set up--I can 
understand that you don't want to make getting into and out of 
the country too complicated and that's why you probably went to 
the two-finger fingerprinting and a flat screen versus a rolled 
approach, which is what the IAFIS was built on. But why did we 
spend all this money to create this database if you folks 
aren't going to structure a system that takes advantage of it?
    Mr. Hutchinson. Thank you, Senator Gregg. And first, I have 
had numerous conversations with the FBI and the head of their 
fingerprint division, and we certainly want to move in 
coordination with each other. But for example, the IAFIS system 
has 44 million prints in it, most of them of U.S. citizens, 
many of them whose crimes have expired, and just a whole host 
of reasons that they might be in there. As our US VISIT program 
is developed, it is not designed for U.S. citizens but for 
foreign visitors. So we take a slice of what is in the IAFIS 
database and put it in our IDENT system so that it can be 
checked, so there is that limited capability. Now as we expand 
our program, hopefully there will be more connectivity there.
    But in addition right now, to connect to IAFIS you have to 
have 10 rolled prints, and we cannot have 10 rolled prints at 
our ports of entry because of processing time as people come 
in. As the technology develops so that we can perhaps have 10 
or 8 scanned prints in a quick fashion, then we hope to be able 
to gravitate to that, so we can then interconnect with the 
IAFIS. But it is a problem not just for the US VISIT, but also 
the State Department, because they have deployed technology 
overseas for the two index fingers since that was the agreement 
between the Attorney General, the Secretary of State, and the 
Secretary of Homeland Security.
    So it is a process issue because of the time constraints. 
It is a systems issue in terms of what it takes to interact 
with the IAFIS program. And it's a technology problem that we 
hope technology will be able to help us with in the coming 
years. In terms of the processing time, it takes us 8 seconds 
for our two digital fingerprints to get a response from our 
system. It would not be any different if we were connecting it 
to the IAFIS system. And if there is a question where we 
connect with secondary, where we can connect with IAFIS, we can 
take the rolled prints as to any additional information that we 
need from them.
    Senator Gregg. What you're saying is that we're building 
from scratch a new system which is going to be essentially 
independent of IAFIS in that they won't be able to access IAFIS 
directly. Yes, there are 44 million fingerprints in IAFIS, 
which is one heck of a database, and obviously the vast 
majority of them are American citizens who have somehow come 
into a position where they would be subject to that scrutiny. 
But a huge percentage, a huge number are international 
fingerprints, and I just, it's going to be hard for me as a 
legislator if we have an event in this country and an 
individual comes into this country who went through the US 
VISIT program, got fingerprinted, but didn't show up because 
your program doesn't have a big enough database yet to pick the 
person out. We find out after the person has done some 
destructive event in this country that that person's 
fingerprints are sitting there at IAFIS and we knew that he was 
a bad guy.
    So I understand the technology problem. I understand the 
practical problem of having to roll everybody coming into the 
country. And I can see where you made the decision and that you 
know, you're going to have to start from scratch building a 
database. But there's got to be a better answer here to getting 
these two converged. If it takes dollars in order to do the 
technology conversions in order to get IAFIS to a digital 
capability where it can handle your type of needs, we'll do it. 
Because quite honestly, your issue is a heck of lot bigger than 
any other issue the FBI has today.
    That fingerprint database of 44 million should be used to 
protect this country against terrorism. That should be its 
primary purpose today. Granted, it was created to protect us 
and deal with criminal events in this Nation, but that isn't 
what it should be used for. It is a huge resource sitting there 
that should be used to protect us from people coming into this 
country to do us harm, and it should be integrated with your 
system, totally integrated.
    And so, I guess your answer to me was, well, we can't 
integrate because we're not there yet. My question to you is 
what do we need to get there and how quickly can we get there?
    Mr. Hutchinson. And that's the right approach to it, 
Senator. We, first of all, are wanting to gravitate to 8 
scanned prints, which would be, I believe compatible for entry 
into the IAFIS system. That will take us some time because 
that's something the State Department has to work on as well, 
and we have to partner with them on the technology.
    Senator Gregg. We can bring the State Department along.
    Mr. Hutchinson. The other suggestion that I would have is 
that we utilize the services of the National Institutes of 
Standards, NIST, that evaluated our system, what its 
capabilities were, and I think that their counsel would be 
helpful in not just looking at what we need to do to make these 
compatible, but who needs to make some adjustments. For 
example, should IAFIS develop a system that does not just 
simply have to take 10 rolled prints. Can they develop a system 
that is interacting to the 8 scanned prints or the 10 scanned 
prints. I hope they would look at that solution as well.
    Senator Gregg. That's fine, NIST is a wonderful technical 
agency and I suppose we could hold a hearing on this, we could 
have CJS and maybe do a joint hearing, and bring all the 
different parties to this fingerprint issue together and try to 
get movement. But we shouldn't have to do that. This 
administration should have a game plan which is in place and 
which is signed off on by the three key parties, State, 
yourself and the FBI, and which says this is the time frame, 
this is the technology changes we have to make, and this is 
what it's going to cost us. You should be coming to us with 
that plan so that we can fund it and we can hold you 
accountable to that time frame. Saying that we should call NIST 
and say well, NIST, will you tell FBI to straighten out, IAFIS 
is not the answer. The answer is that you folks, because you 
are the administration, should be doing this. I mean, that's 
what administrations do. Congresses shouldn't have to do that.
    And I'm really discouraged about this. We spent so much 
time getting this--database up and running and now it's being 
marginalized in the most singly important thing we have to do 
as a country, which is defend ourselves from people coming in 
who are our enemies. It's just very hard for me to figure out 
why we aren't more aggressively pursuing a resolution of those 
issues, rather than you're going your way setting up your 
database and saying well, we can't get into IAFIS because we 
can't roll 10 prints, and the FBI is out there saying they 
can't do it with digital and they aren't going to do two 
prints, and they aren't going to convert their system because 
it's too expensive and too complicated for them to do it. And 
then we're supposed to go call NIST up and say really, who has 
the answer here. You guys should have the answer and it should 
be given to us.
    So what I'm going to ask you for is for you to gather the 
Secretaries of Homeland Security and State and the Attorney 
General, and get us a statement of policy as to how you're 
going to get the FBI fingerprinting databases coordinated so 
that they all are integrated and can communicate with each 
other in a time frame that's going to occur before we're 
attacked again.
    Mr. Hutchinson. Thank you, Senator. That's a fair request 
and we will certainly be delighted to work and develop that 
joint strategy.
    Senator Gregg. Thank you.
    Senator Cochran. Mr. Secretary, just as a way of following 
up on Senator Gregg's questions, I'm curious to know what funds 
the Department intends to dedicate to this project, the 
integration of the systems during fiscal year 2004 and what 
account is being used to fund the project. Do you have that 
information or would you like to submit that for the record?
    Mr. Hutchinson. We probably will supplement the answer that 
I will give now. But first, and as Secretary Ridge testified--I 
believe it was before you, but it might have been the House 
Appropriations subcommittee, is the existing need for 
integration so that the Border Patrol agents can access IAFIS. 
The funding is in place to do that and it is pledged to be 
accomplished by the end of this year, and I think the Secretary 
indicated that we will scrounge around if there needs to be a 
few extra dollars to achieve that goal, but we're committed to 
making sure the information integration with IAFIS is 
accomplished.
    In reference to Senator Gregg's comments and questions, 
that integration will be funded out of the $340 million in 2004 
for US VISIT. That's the budget that we have to work with to 
accomplish objectives of 2004, as well as moving toward any 
integration, and of course, any other funding would come from 
the State Department's budget and the Department of Justice.
    [The information follows:]

          Integration of Database Systems in Fiscal Year 2004

    Therefore, to accelerate the implementation of IDENT/IAFIS 
capability within the Department, we intend to reallocate $4 million of 
the remaining funds provided in Public Law 107-117. The $4 million, 
when combined with fiscal year 2003 funds already provided ($3.5 
million obligated for IDENT/IAFIS as part of increment 1 Entry-Air/
Sea), will allow BTS to implement IDENT with 10 print capabilities in 
secondary processing areas at 115 airports, 14 seaports and 50 of the 
largest land border ports. In addition, this funding will support 
implementation of the IAFIS/IDENT 10 print capability at 70 percent of 
the Border Patrol stations. The remaining land ports of entry, 30 
percent of the Border Patrol stations and major ICE locations (to be 
identified) will receive this capability in 2005.

    Senator Cochran. One observation is that if this project is 
not receiving the support and attention required to get it to 
completion, should a separate project office be set up to 
implement the program?
    Mr. Hutchinson. I would not suggest so. We have a very 
effective project office in US VISIT that has the capability. 
And I don't mean simply to recite challenges in this effort, 
but you know, we had a choice this year of recognizing that we 
could have an added security value by putting our fingerprint 
scanners at our primary ports of entry and we did this, and 
we're looking at when we change it down the road to a broader 
capability, we probably lost a million dollars for those 
fingerprint scanners. So for the added security value, it was a 
good decision to make, but we recognized at the time that we're 
going to have to gravitate to probably 8 prints at a minimum, 
for a number of reasons. So we recognize the need to move to 
that standard and that will be a part of the US VISIT oversight 
responsibilities.
    Senator Cochran. Is there a final deployment schedule to 
roll out version two of the integration project to all Border 
Control facilities or when can these facilities expect the 
roll-out to be completed?
    Mr. Hutchinson. There is, and that will be completed by the 
end of this year. I believe we have IAFIS at 20 Border Patrol 
stations. I think we have about another hundred that are on 
schedule to be given the connectivity to IAFIS, and so that 
should be completed on schedule by the end of the year.
    Senator Cochran. Senator Byrd.
    Senator Byrd. Thank you. I particularly was interested in 
Senator Gregg's and your questions, and the answers.
    Last month a few days after the Democratic primary, the 
President went to Charleston, South Carolina, to crow a little 
about his efforts to improve the security of the ports. I must 
say that I found this kind of a political event to be somewhat 
disingenuous. The President signed the Maritime Transportation 
Security Act on November 14, 2002. That law authorized 
initiatives to improve security at our ports, but I'm not 
convinced that the Administration has done that much since then 
to actually make our ports safer. Given the huge demand for 
port security funds, why is this Administration only requesting 
$46 million to actually secure our ports?

                             PORT SECURITY

    Mr. Hutchinson. Senator Byrd, it's because we believe that 
there is a shared responsibility, both in terms of the private 
sector, and the port authorities, and the Federal Government 
spurs that on, sets the example, funds a significant portion of 
the projects, which I believe that we have done. Last year I 
think there were two rounds of port security grants, so there 
was a very substantial amount that was invested last year, and 
it was a combination of grants to port authorities but also to 
the private sector. But, we do not believe it's exclusively a 
Federal Government responsibility to do all of the port 
security investment, the private sector has a responsibility, 
as well as the governmental port authorities.
    Besides the port grants, we are also investing 
substantially in port security in terms of the activities of 
the Coast Guard, the Customs and Border Protection, and the 
other agency responsibilities related to the ports.
    Senator Byrd. Well, I know that we are going to continue to 
hear that answer. We still inspect less than 5 percent of the 
5.7 million containers that come into our ports each year. The 
President took credit for making available $179 million this 
year in funding for grants for port security. He failed to 
mention that he did not request a dime of those funds. He 
failed to mention that the Coast Guard port directors, who 
actually have responsibility for safety, estimated that $1.25 
billion would be needed in the first year and $5.4 billion 
would be needed over the next 10 years to comply with the new 
Federal regulations mandated by the Maritime Transportation 
Security Act. He failed to mention that last year he opposed my 
amendment to provide $460 million in port security grants. He 
failed to mention that his budget for fiscal year 2005 proposed 
to cut port security grants by 60 percent, from $124 million to 
$46 million, when the last competition for grants resulted in 
over $987 million in applications from ports nationwide.
    Now I'm afraid something terrible is going to happen one of 
these days, and then what will be said? Our ports must compete 
with other ports, including ports in other countries. If these 
security costs result in higher prices, assuming the costs are 
going to have to be borne by industry, are you and the 
President not concerned that business may go elsewhere, costing 
U.S. jobs?
    Mr. Hutchinson. Well, I think that first of all, we've 
discussed significantly the port security grants and the 
philosophy behind the amount that is requested. You also raised 
the question of the fact that only 5 percent of the 6 million 
sea containers are inspected that come into our ports. I think 
this is, again, a philosophical question as to whether you 
inspect 5 percent, 10 percent, 15 percent, or 100 percent. And 
I suppose if we inspected 20 percent of all the cargo, there 
would be those who would argue it ought to be 100 percent, that 
argument exists right now. I think it's a better decision to 
try to make sure we inspect the right 5 percent or right 10 
percent, or whatever that number is, and that we inspect all of 
those, 100 percent of those containers that indicate a risk to 
our Nation.
    So that is the strategy that we're developing. We are not 
underestimating your concerns and what we know as threats to 
our ports. We take that very seriously, and that's why the 
Coast Guard has conducted more than 36,000 port security 
patrols. That's why we have imposed the regulations that 
require the security plans by the vessel operators and the port 
authorities, all to enhance the security, in addition to the 
partnership that we have in the cash investments for port 
security.

                                CAPPS II

    Senator Byrd. Mr. Secretary, the fiscal year 2004 
Appropriations Act included a provision requiring the General 
Accounting Office to review the privacy and security of the 
proposed CAPPS II airline system. The GAO recently submitted a 
report to us that stated that your Department has met only one 
of the eight criteria set out by Congress before you could move 
ahead with deployment of the system. I understand that the 
Department concurs with the GAO's findings. Where is DHS now in 
testing of the CAPPS II system?
    Mr. Hutchinson. Senator, we are actually months away from 
actual testing data for CAPPS II. We are obviously aware of the 
airlines' concern about voluntarily sharing data, so we're 
looking to find a vehicle of having the data that we need to 
query out the testing, and my best estimate would be that we 
are still a number of months away from doing the testing to the 
CAPPS II.
    Senator Byrd. Now that the GAO concluded that your 
Department has not met the requirements of the law, I encourage 
you not to deploy the CAPPS II system until you have satisfied 
for this subcommittee that the requirements of the law have 
been met.
    I have several questions, Mr. Chairman. I could submit 
several of these for the record at your pleasure.
    Last week the Department celebrated its 1-year anniversary. 
To commemorate the event, Secretary Ridge released a list 
touting the Department's major accomplishments in its first 
year and, indeed, much has been accomplished. For instance, his 
press release notes that a seal has been developed to establish 
an identity for the Department. Good. You know who you are and 
for whom you are working. The release also noted that employees 
received a lapel pin signed by the Secretary and featuring the 
new Department seal.

                        IMMIGRATION ENFORCEMENT

    Sadly, no mention is made in the list of the Department's 
accomplishments for the enhanced enforcement of our immigration 
laws. At best, there is a passing reference to the new 
Department's reorganization of the immigration enforcement 
functions. Especially in light of the President's sweeping 
amnesty proposal, I'm surprised that the Department has nothing 
to report as an accomplishment in enforcing our existing 
immigration laws. Many members who were opposed to the creation 
of the Department, like myself, were concerned that the focus 
of the Department and its personnel would shift from 
traditional duties to terrorism. Why is the Department unable 
to point to significant improvements and successes in 
enforcement of existing immigration laws? What specifically is 
your director doing to enhance immigration enforcement?
    Mr. Hutchinson. Thank you, Senator, and I'm grateful for 
the opportunity to reflect on significant achievements in the 
area of immigration enforcement. It is estimated, as you know, 
that there are 8 million illegal workers in this country at the 
present time. It's estimated that 40 percent of those are here 
because of visa overstays. And so whenever you talk about what 
we've done with US VISIT and being able to have a better 
control of those who come into the country and overstay their 
visas, that system is a significant accomplishment in 
immigration control. It produces information on people who 
overstay their visas and stay here in the country illegally.
    We have created an office of compliance within the Bureau 
of Immigration and Customs Enforcement that is responsible for 
receiving the information and providing leads to the field in 
order to determine who should be processed for removal from the 
country. So, that is a huge step forward in immigration 
enforcement.
    In addition, we have successfully implemented the SEVIS 
program, which tracks our foreign visitors coming into this 
country, and in one fall semester, as over 200,000 students 
came into our country, we apprehended over 200 that came in 
here who were not properly accepted into a university. I think 
our country is safer because of that effort.
    We have also, of course, put 1,000 more patrol agents on 
our northern border, and we have increased our resources on the 
southwest border. The chief of police of Phoenix attributed 
immigration enforcement in Arizona and our Operation Ice Storm 
to a successful reduction of violent crime in the Phoenix area.
    And so at every level, from the fugitive operations to 
Operation Predator to Operation Ice Storm, I think we have done 
a very, very significant amount of work in immigration 
enforcement.
    Senator Byrd. Do you miss being in your old job?
    Mr. Hutchinson. Every once in a while I miss being up there 
on the House side.
    Senator Byrd. I think you did a good job. I watched you 
very carefully during the impeachment procedures.
    Mr. Hutchinson. Thank you, sir.
    Senator Byrd. I thought you kept a level head on your 
shoulders. I thank Senator Gregg for raising the issue of 
compatibility between US VISIT and the FBI databases. Chairman 
Cochran and I raised the issue with Secretary Ridge almost a 
year ago.

                          BORDER PATROL: IDENT

    On a related matter, last week the Department of Justice 
Inspector General released a report that examined the case of a 
Mexican citizen who had been detained by the Border Patrol on 
two occasions in January 2002 for illegally entering the United 
States. On each occasion, Border Patrol agents returned him 
voluntarily to Mexico. They did this because IDENT, the 
immigration agency's automated fingerprint identification 
database and the Federal Bureau of Investigation's automated 
fingerprint identification database were not integrated and the 
Border Patrol agents who apprehended him did not learn of his 
extensive criminal record or past deportation. If his full 
history had been learned, according to Border Patrol policies, 
he should have been detained and subjected to prosecution. 
Instead, he was returned to Mexico. Subsequently, he again 
crossed the board illegally, and made his way to Oregon in 
September of 2000 where he raped two nuns and killed one.
    In the report, the Inspector General again found delays in 
the effort to integrate the IDENT and IAFIS databases. While he 
found some progress in deploying an integrated version of 
IDENT-IAFIS, full integration of the two systems remains years 
away. Current projections are that the two systems will not be 
fully integrated until at least August 2008, almost 2 years 
behind the original scheduled completion date. Both the 
Department of Justice and the Department of Homeland Security 
say they recognize that the databases need to be integrated. 
However, the IG report found uncertainty as to who is 
responsible for the overall management of the integration 
project. It states that Justice and Homeland have yet to enter 
into a memorandum of understanding delineating the specific 
roles and responsibilities of each agency in the project.
    Can you give us an update on your plans for developing a 
memorandum of understanding with the Justice Department so that 
this project can move forward?
    Mr. Hutchinson. Yes, sir, and that certainly points out 
that there is much work that remains to be done, and I'm 
grateful for the opportunity to recite some of the efforts that 
we have implemented, but we are the first to acknowledge that 
there is much more to be done and this is certainly a perfect 
example of it. The IG is correct, to wait until 2008 would be 
absolutely wrong and intolerable, so under Secretary Ridge's 
leadership we are going to get it done this year. We want to 
avoid this type of tragic circumstance in the future, and it 
was a tragic circumstance of this particular case, and it shows 
the extraordinary cost of not having all of the information 
needed for our Border Patrol agents.
    We have that system at 20 sites now, and we're going to add 
100 this year and get them connected. And if there's a few left 
after that, we'll find the money to get it done. We have 
accelerated the schedule to get it done this year. We want to 
look at more opportunities to give our agents in the field, and 
inspectors, all the tools they need, particularly this type of 
access to the FBI database.
    Senator Byrd. Thank you. Thank you very much, Mr. Chairman.

                           TRADE ENFORCEMENT

    Senator Cochran. Thank you, Senator Byrd.
    Mr. Secretary, something that your State and my State is 
interested in is our domestic fish industries, catfish and 
other activities relating to the production of aquaculture 
resources. I was recently informed that the Customs and Border 
Protection officials took 6 months to review and comment on a 
request for new tariff codes for Vietnamese exports of fish 
into the United States. I've written to Secretary Ridge about 
this issue, but I would like to bring this to your attention 
personally and receive any comment that you have about a 
commitment to trade enforcement, which in my view should remain 
a high priority for the Border and Transportation Security 
Directorate. I hope you will look into the problems that may 
exist in the Department regarding catfish dumping or trade 
rules that need to be enforced aggressively by the directorate.
    Mr. Hutchinson. Thank you, and I certainly share the same 
concern, coming from Arkansas, in reference to the enforcement 
of our trade laws on this commodity as well as others. I don't 
know the specific answer on why it took 6 months to review that 
tariff code and I would be happy to provide a specific answer 
to you. We have made a commitment not to reduce our resources 
and commitment to trade enforcement, and we have a good 
partnership with the Department of the Treasury to carry on 
those trade enforcement efforts. I'm co-chairman of the Coe 
Act, which is the partnership with industry in their advisory 
committee on how we handle our trade rules, so we will get a 
specific answer to you on that question.
    [The information follows:]

           Vietnamese Exports of Fish into the United States

    CBP processing time for 484(f) requests varies depending on 
the complexity of the request and the purpose of the request. 
While most requests are processed within the 6-month period, 
exceptional requests have taken longer. (As a comparison, the 
484(f) committee received a request for a statistical breakout 
for low-melt polyester fiber on June 30, 2000, which was not 
approved until May of 2001 for implementation on July 1, 2001. 
While rare, these situations do occur.) The request for these 
fish breakouts was one of these exceptional requests.
    The 484(f) request received by CBP was submitted in advance 
of the Federal Register Notice published on August 12, 2003, 
referenced in the requestor's submission, and the instructions 
to CBP issued on September 12, 2003. Those documents needed to 
be reviewed in conjunction with the requestor's submission 
because CBP is the agency responsible for collecting the 
antidumping duties under the order and identifying attempted 
evasion of the order. This 484(f) request was also intended to 
allow the domestic industry to monitor specific foreign 
competition.
    The first problem was that CBP (and the ITC, based on their 
report) did not agree with the requestor as to the proper 
classification of the imported species of fish and therefore, 
the proposed breakouts. This is not an unusual occurrence. 
Since the 484(f) committee usually tries to meet the purpose of 
the request even if the committee does not technically agree 
with the request, the issue for CBP was how to meet the 
requestor's goals.
    CBP found that the specific imported fish were more subject 
to misclassification than other commodities for which breakouts 
have been requested. This fact meant we needed to be able to 
segregate these fish from the other fish properly classified in 
the various subheadings.
    CBP also had to reconcile the recent change to the FDA 
labeling requirements with CBP import laws, regulations, and 
policies and enforcement capabilities.
    CBP needed to take into consideration our informed 
compliance responsibilities to importers under the MOD ACT 
followed by our enforcement capabilities. We also considered 
our ability to physically identify non-compliant fish, our 
ability to target shipments for sampling and maintain the 
physical integrity of the perishable sample through the 
laboratory analysis process, and whether other agency 
requirements would be effected by any of the breakouts. We also 
took into consideration concurrent work being done by the 
Bureau of Immigration and Customs Enforcement. Finally, we 
applied our knowledge of certain techniques that have been used 
to avoid payment of higher duties on other perishable 
commodities.
    All of these considerations are not routinely necessary 
during our review of 484(f) requests and required information 
from multiple CBP offices and time to correlate the elements 
into a plan. Once the facts were finalized, CBP responded to 
the other 484(f) members with our proposal.
    Note that CBP met with the requestor's representatives on 
February 27, 2004 and were able to come up with a new proposal 
that will meet their needs for trade data and allow CBP to more 
easily enforce the current antidumping order and verify trade 
data. At the same time, this proposal will allow implementation 
prior to the resolution of the classification issue. The 
requestor will provide some additional information to CBP at 
which point we will forward the proposal to the other committee 
members (Census and the ITC.) We anticipate that our proposal 
will be satisfactory to the other committee members and the new 
breakouts will be implemented no later than July 1, 2004.

                          FEDERAL AIR MARSHALS

    Senator Cochran. Thank you very much. In connection with 
Federal air marshals, I notice that the budget request is 
essentially flat for the Air Marshals program. Is this a 
concern to you? Do you think an adequate level of resources are 
available under the budget request to fund pay raises and other 
inflationary costs that may occur with this program?
    Mr. Hutchinson. We did get hit with the pay increases that 
are built into the budget that had to be absorbed. We have a 
strong commitment to the Federal Air Marshals program. That's 
one of the reasons we took a number of steps to add some 
additional capabilities to supplement the air marshals with 
other Federal agents who travel, including cross-training 
additional ICE agents and a partnership with the Secret 
Service. We believe that with those force multipliers out 
there, and with the continued commitment to the air marshals, 
that the President's budget is sufficient in that area.
    We are, you know, for this year, looking at a number of 
different areas to make sure that there is no any significant 
diminishing of our commitment to the air marshals.

                        NORTHERN BORDER AIR WING

    Senator Cochran. The Air and Marine Operations program has 
been stretched pretty thin for the last 2 years. Long-term 
repetitive details for personnel and assets are being used to 
protect the northern border and the national capitol region. 
The appropriations for fiscal year 2004 included resources for 
the establishment of a permanent northern border air wing. Will 
you tell us what the status of establishing this air wing is, 
when will there be permanent employees on board, and when will 
aircraft be purchased, for example. Are you going to have to 
continue to rely on detailees to cover the northern border and 
the national capitol region if you go forward with the 
establishment of this air wing?
    Mr. Hutchinson. I think it's important that we have that 
air wing capability on the northern border, and we are actively 
pursuing it. The assets that are deployed, you know, are from 
our existing resources, but the 2005 budget does request $28 
million for P-3 aircraft surveillance that will help in regard 
to our interdiction efforts, and also the assets that we need 
for the CAPP or the protection of our air space. So there are 
some funds designated in the 2005 budget for this purpose.
    As to the exact time frame on the deployment and the 
establishment of the air wing for the northern border, Senator, 
I will have to get back to you.
    [The information follows:]

  Exact Timeframe on the Deployment and Establishment of the Northern 
                            Border Air Wing

    The fiscal year 2003 War Supplemental provided $20.5 million to 
launch the Bellingham Air Branch, the first of five Northern Border 
Branches. Planned allocation is as follows: $2.5 million for personnel 
transfers, $12.6 million \1\ for medium lift helicopter acquisition and 
$6.6 million for multi-role enforcement aircraft. Staffing will be 
provided through a combination of new hires and the transfer of 
experienced personnel from other AMO field locations.
---------------------------------------------------------------------------
    \1\ Funds from these two appropriations were combined to purchase 
one medium lift helicopter.
---------------------------------------------------------------------------
    In fiscal year 2004, AMO received $35.2 million in Operations and 
Maintenance (O&M) funding to launch AMO's Northern Border Branch in 
Plattsburgh, NY. Planned allocation is as follows: $10 million \1\ for 
medium lift helicopter acquisition and $6.6 million for multi-role 
enforcement aircraft, $9.7 million for facility and $2.7 million for 
aircraft spares. An additional $5.4 million was appropriated in 
Salaries and Expenses funding to cover the cost of 36 personnel.
    Plattsburgh and Bellingham each will be equipped with three 
aircraft, including one Multi-Role Enforcement Aircraft (Pilatus PC-12 
fixed-wing), one Medium Lift Helicopter and one Light Enforcement 
Helicopter.
    The two PC-12 Pilatus aircraft have already been purchased and 
delivery is expected in May 2004/early fiscal year 2005, respectively. 
Contracts have not yet been awarded for the two Medium Lift Helicopters 
and Light Enforcement Helicopters required for full activation of 
Bellingham and Plattsburgh. Currently, the UH-60 Black Hawk is 
fulfilling the MLH role and the AS350 is fulfilling the LEH role at 
other AMO branch locations.
    The President's fiscal year 2005 budget includes $35.2 million to 
launch the third Northern Border Branch.
    AMO will continue to rely principally on detailees to execute the 
ongoing National Capital Region (NCR) Airspace mission. AMO has 
sustained the NCR mission by transferring funding, personnel and 
equipment from other missions and requirements.

                        LONG-RANGE RADAR SYSTEM

    Senator Cochran. We are looking forward to getting a report 
from the Air and Marine Operations officials on the current 
radar situation around the country. What is the total amount 
that the FAA had in its budget for operating the long-range 
radar system? Can you tell us how much is being requested by 
other agencies across the government by agency, and is there 
any particular reason that new resources are being requested in 
the fiscal year 2005 budget to allow the Department to assume 
this FAA responsibility, as opposed to a transfer from the FAA 
budget?
    Mr. Hutchinson. You're not speaking of our TARS, you're 
speaking of the long-range----
    Senator Cochran. The long-range radar system.
    Mr. Hutchinson. I don't know the answer as to why that is 
not being transferred from the FAA, but clearly that is a 
priority to have that capability for the protection of our 
borders.

                       TSA: PORT SECURITY GRANTS

    Senator Cochran. The Transportation Security 
Administration's budget has 54 percent of the request dedicated 
for aviation passenger and baggage screeners pay, benefits, 
training and human resource services. There are other grant 
programs administered by the TSA dealing with trucking 
security, port security grants, and operation of safe commerce 
that are slated to be moved to the Office for Domestic 
Preparedness under the reorganization of the Department. The 
2005 budget proposes to reduce or terminate funding for these 
programs. My question is, will the Transportation Security 
Administration continue to have responsibility for security 
over all sectors of transportation or will aviation security 
continue to be the main focus of the agency?
    Mr. Hutchinson. Well, in terms of budget, clearly aviation 
would be the main focus of the agency, but in terms of 
responsibilities and partnerships, the other modes of 
transportation are very important to us. I know that for 
example, in reference to Amtrak, there is a close partnership 
there, we have some pilot projects where we are working with 
Amtrak to enhance security, and we believe that we would 
exercise this through standard setting, best practices and 
regulation if necessary.
    In reference to the grant programs, the expertise still 
resides in TSA. And even though the grant program is being 
transferred to the Office for Domestic Preparedness in Homeland 
Security, we will be connected in terms of evaluating those 
grants, and helping to set the priorities for those in terms of 
security, and that would be true for the other grants in the 
transportation modes.
    Senator Cochran. So there will be coordination and an 
active role for the Transportation Security Administration in 
coordinating with the Office for Domestic Preparedness for the 
administration of those programs?
    Mr. Hutchinson. Absolutely, Mr. Chairman. That's essential 
and that was the understanding when that transfer was made.
    Senator Cochran. Is there an indication that additional 
funds may be made available within the existing grant programs 
for port security grants in the Office for Domestic 
Preparedness?
    Mr. Hutchinson. I think that the grant level is as 
suggested in the 2005 budget, but I know that in 2003 there 
were a number of rounds that had built up and been announced 
for the port security grants. I don't know exactly the layout 
planned for 2004, but as far as I know, that amount of grant 
money is fixed based upon the allocation in the 2004 budget.

                             TSA: SCREENERS

    Senator Cochran. The Aviation and Transportation Security 
Act provided that the Federal Government be responsible for 
screening operations for airline passengers at airports 
throughout the country, and there was a pilot program 
established at five airports to utilize private screeners in 
place of Federal screeners. One of these is located in 
Mississippi. The law provides for the ability of airports to 
apply to the Department of Homeland Security to opt out of 
using Federal screeners and to use qualified private screening 
companies at the end of a 3-year period, and that will be 
coming up in November of this year. When do you anticipate 
results of the Department's study on the private screening 
companies to be made available from these five airports that 
have been participating in the program?
    Mr. Hutchinson. I think there are two things I would 
emphasize. One, it is important to get the results from those 
five airports that were the subject of that pilot for private 
screening. I would expect that information within the coming 
months so it can be evaluated. The second part of the equation 
is the criteria that we would use for determining how we 
respond to those airports that might request to opt out. And, I 
have asked for that plan and that program to be developed and 
reported back to me for review. With both of those issues 
resolved, I think in the coming months we should have an 
indication as to the results and the direction we can go.
    Senator Cochran. There is some indication that the funding 
might not be sufficient to provide additional airports with the 
funds to use private screeners. There is $119 million in this 
year's appropriated account for private screening programs, but 
only a $10 million increase requested for 2005. Do you 
anticipate a need for additional funding if airports apply to 
use private screeners?
    Mr. Hutchinson. I would think the assumption is that it 
would be a level costing. I don't think we would anticipate a 
private screening capability or authorization to be based on an 
increase in funding for that airport.

                                 FLETC

    Senator Cochran. The Federal Law Enforcement Training 
Center was given responsibility for the Charleston, South 
Carolina training facility in this fiscal year 2004. This 
facility was previously operated and maintained by the Border 
Patrol. Has the Department of Homeland Security developed the 
level of funding that should be transferred to the Federal Law 
Enforcement Training Center to operate this location, and if 
so, when will this transfer take place?
    Mr. Hutchinson. The transfer has effectively taken place. 
The FLETC has taken over the responsibility for that facility 
and the Border Patrol operations. It is being handled out of 
the regular portion of the budget. I am not aware of any 
specific needs that would require increased funding.

                      TRANSIT WITHOUT VISA PROGRAM

    Senator Cochran. Senator Stevens, I appreciate your being 
able to come to the hearing. You're recognized for any 
statements or questions you may have of the witness.
    Senator Stevens. I'm here, Mr. Chairman, and good morning, 
Senator Byrd, primarily because my staff has told me that there 
is an intent of Homeland Security to implement new regulations 
to replace the transit without visa program. This, I'm told 
it's called the TWOV program, falls apart every time the alert 
status is raised, and has led numerous carriers to bypass U.S. 
airports, particularly our Anchorage airport, which is the 
largest cargo landing airport in the United States today. There 
is significant loss of revenues for the airports because the 
foreign carriers will not respond as quickly as the changes 
come about in our programs.
    And we had significant capability for intelligence 
gathering opportunities when those flights came through. As a 
matter of fact, our people cooperated totally with the 
intelligence people to make sure that we gained all the 
information we possibly could get from any activity with regard 
to the shipments.
    But we have had one international carrier that has 
suspended its stop in Anchorage three times now since 9/11. 
Every time the TWOV program is raised because of risk status, 
they just cancel out. We want to join with you, and with the 
whole country in terms of homeland protection, but it does seem 
to me that we ought to have some sort of regimen that will take 
into account the necessity to maintain these flights on a 
regular schedule.
    Right after 9/11, as you know, many of them cancelled in 
Alaska altogether and went to Canada. Those same flights left 
Canada and put the burden for checking the flights on the 
carriers in the interior of the midwest, rather than in the 
area of Alaska where we have substantial qualified people for 
that activity. Because it's such a large airport and handles so 
much volume of cargo, it can get the job done quickly, much 
more quickly than a smaller airport which does not have that 
volume and is not used to doing the check as the first stop in 
the United States. Are you familiar with this at all?
    Mr. Hutchinson. Yes, sir. In reference to the transit 
without visa program, it was suspended because of specific 
threat information that we had. It was suspended. We recognized 
the adverse economic consequences that this had on the 
Anchorage airport, which has a significant transit without visa 
passenger load. We immediately started working with the 
airlines to determine what security measures could be put into 
place that would allow us to reinstitute a similar type of 
program that would not have the security vulnerabilities.
    We have developed an answer and a program that we could put 
into place, which would reinstitute similar portions of that 
type of program, and would allow the transiting of some of the 
international passengers through our airports again. We are 
circulating that plan in the interagency process, and we do 
hope that we will be able, in the near future, to have a 
resolution of that. We understand the economic consequences, we 
do want to have the security measures in place before it is 
reinstituted.
    And you're right, Senator, it was complicated by the fact 
that over the holidays we did have a specific threat to the 
aviation industry, which would not have been a good time to 
redeploy that program or a similar one.
    Senator Stevens. These are the so-called ATP regulations?
    Mr. Hutchinson. Yes, sir.
    Senator Stevens. Will they be promulgated in a way that 
they will not change on an orange alert?
    Mr. Hutchinson. That is correct. These would be designed so 
that they provide the security measures that are necessary and 
they would allow for a constant program. Now I can tell you 
that, you know, if we have a specific threat information and we 
see there is a vulnerability that we didn't even think about, 
it's within the realm of possibility that we might have to take 
an additional security step in orange that would impact that 
program. But that is not the design, the design is that it 
would have a constant flow because it has the security measures 
in place.
    Senator Stevens. On the last recess I went to Anchorage and 
I went through the whole new wing of the airport that has been 
designed in total compliance with your Department. As a matter 
of fact, we have a problem because your Department requested 
and received over some $40 million from the amount of money 
that was put up to build the terminal. For the Homeland 
Security facilities within the new addition, they had to be 
finished before the terminal could be finished. And so they all 
agreed, and I now have the task of getting another $40 million, 
and that's another fight down the road.
    But the problem is that it was designed to handle the 
regulations that were in effect, and now those regulations, if 
they are changed, will require an additional kind of management 
of the cargo. We're not talking about a very heavy passenger 
load internationally. This is primarily cargo. There are very 
few passengers on those planes and in many instances none. What 
we're looking at is the cargo problem. I'm told that there are 
6.5 miles of tracks that are suspended from the ceiling that 
carry this cargo so it has a chance to be inspected, and then 
it can go back on the plane. I don't think anywhere else in the 
United States has that design.
    But, by the changes in this ATP, what happens is that they 
go to Vancouver or go to another place, Calgary, and then they 
go to land in some podunk that doesn't have any facility at 
all. So we are over intensifying regulation in an area that, I 
believe, has the most modern baggage and cargo inspection in 
the country today, and should have with the volume of cargo we 
have coming through there. I urge you to consider what the 
change in regulations does to that installation. It puts cargo 
into places ultimately, if it's going to continue on to the 
United States, if it's destined for what we call the South 48, 
it's going to completely disrupt this process and put enormous 
burdens on small airports when we're prepared to take the total 
burden but for the continued change in the regulations.
    Mr. Hutchinson. We'll certainly look at the concern that 
you raise, and recognize the investment in security that has 
already been made. I think the proposed plan, that again is in 
interagency circulation, looks not just at the physical 
security arrangement, but addresses some other vulnerabilities 
dealing with the passengers that would travel under that 
program. So, there are really two parts to the security 
concerns. One would be the passengers who transit themselves, 
and the other part would be the physical security measures that 
would be placed at the airports. Obviously there has been a 
substantial investment in Anchorage and that should be taken 
into consideration.
    Senator Stevens. I know you must travel a lot, but have you 
traveled to Alaska since this new position you've got?
    Mr. Hutchinson. Senator, I have not had that privilege. I 
know my brother has at your invitation, but I have not been 
there, and I look forward to that opportunity.
    Senator Stevens. I would hope that you would see fit to 
make that trip soon because these facilities are almost 
completed now and this new addition is almost completed, and I 
just think it's going to be unfortunate if we have invested all 
this money and then find out it will not comply because of a 
change in regulations.
    As a matter of fact I just might arrange, Mr. Chairman, for 
a little extracurricular activities for our friend from 
Homeland Security if you come up soon. The sooner the better.
    Mr. Hutchinson. Thank you, Senator, for that invitation.
    Senator Stevens. I do hope you will come, I'm serious.
    Mr. Hutchinson. I will say that if you have any concerns 
when we put these regulations out, I will then make sure I go 
up there to ensure everything is taken into consideration. I 
will say we don't want to have an adverse impact on what's 
already been done up there.
    Senator Stevens. I'd like to go with you. I'd like to show 
you these things and get the people out there who designed them 
in compliance with existing regulations, and see if the 
regulations must change, how we can quickly meet those 
regulations without taking more of the AIP money.
    Mr. Hutchinson. We will be glad to work with you and your 
staff to make sure that that's handled in the proper way.
    Senator Stevens. Thank you very much, Mr. Chairman.
    Senator Cochran. Thank you, Senator Stevens. Senator Byrd, 
do you have anything further?

                          FEDERAL AIR MARSHALS

    Senator Byrd. Mr. Secretary, your budget request for the 
Federal Air Marshals is essentially a flat line request similar 
to last year's funding level. Yet, on two occasions in less 
than a year, late last summer and again over the recent winter 
holidays, you increased the threat level to code orange, in 
large part because intelligence and other indicators led you to 
believe that there were enhanced threats to the United States 
via airplanes flying into or over this country.
    However, based on budget briefings with my staff, I 
understand that the resources directed to this program are not 
sufficient to hire the number of air marshals that should be 
hired to maintain a more robust presence on targeted flights.
    As I mentioned in my opening statement, I wrote to 
Secretary Ridge today urging him to propose to this committee a 
transfer of excess salary funds to the Federal Air Marshals 
Program. I urge you to make that proposal soon.
    Mr. Hutchinson. Senator, we're happy to receive your 
letter, evaluate it and make an appropriate response. We 
recognize the importance of Federal air marshals and I know 
that last year, wherever there was a concern expressed about an 
adverse impact on their work force, we did find the funds to 
make sure that didn't happen, and certainly this year we will 
make sure that there is a robust commitment there, and we look 
forward to receiving your letter.
    Senator Byrd. I have further questions for the record, Mr. 
Chairman.
    Senator Cochran. Thank you, Senator.
    Mr. Hutchinson, we appreciate very much your excellent 
service in the Department of Homeland Security and your 
cooperation with our subcommittee. Senators may submit written 
questions, I have some that I will submit, as does Senator 
Byrd, and there may be others. We ask that you respond to the 
questions within a reasonable time.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Byrd. I thank Secretary Hutchinson for his 
appearance, for his good work, and hope that he will come to 
West Virginia on his way to Alaska.
    Mr. Hutchinson. Thank you, Senator. I have been to West 
Virginia.
    Senator Byrd. We have a beautiful place down there called 
the Greenbrier.
    Mr. Hutchinson. I have enjoyed those rooms.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted by Senator Thad Cochran

   U.S. VISITOR AND IMMIGRANT STATUS INDICATOR TECHNOLOGY (US VISIT)

    Question. Last week, President Bush met with President Vicente Fox 
of Mexico and announced that citizens of Mexico who hold border 
crossing cards and are frequent crossers of the border will not have 
each entry recorded into the US VISIT database. Please provide a more 
detailed explanation of this policy?
    Answer. The Department of Homeland Security is committed to 
developing a solution for the processing of Border Crossing Card (BCC) 
holders.
  --Most Mexican citizens who travel to and from the United States 
        regularly may apply for a multi-use travel document, B1/B2 
        Visa/BCC also known as a ``laser visa'', which serves as either 
        a BCC or a B1/B2 visa. Mexican citizens who use the travel 
        document only as a BCC will not initially be subject to US 
        VISIT processing during primary inspection inasmuch as their 
        biometric data (fingerscans and photographs) have already been 
        captured during the BCC issuance process. This is an interim 
        solution for the land border while the Department explores the 
        long term solution to record the entry and exit of persons 
        crossing our land ports of entry.
  --When admitted under the BCC program, Mexican citizens may stay in 
        the United States for up to 72 hours and travel within the 
        ``border zone'' (within 25 miles of the border in Texas, 
        California and New Mexico, and 75 miles of the border in 
        Arizona). Approximately 6.8 million Mexican nationals today 
        utilize a BCC to make approximately 104 million crossings per 
        year when using the card as a BCC card only.
  --Prior to issuing a BCC to a Mexican citizen, the Department of 
        State conducts biographic and biometric checks on the 
        individual. The fingerscans and photograph of the Mexican 
        citizen are then embedded into the BCC. A holder of a BCC is 
        inspected to determine that he or she is the rightful bearer of 
        the document when crossing through a U.S. port of entry.
  --As the next phase of US VISIT is implemented at southern land ports 
        of entry by the end of 2004, if a Mexican citizen chooses to 
        use the BCC as a B1/B2 visa (traveling outside the ``border 
        zone'' and/or staying longer than 72 hours in the United 
        States), he or she will undergo US VISIT processing at the land 
        border secondary inspection areas.
    Question. Customs and Border Protection is in the process of 
deploying readers for the border crossing cards. What will be the 
policy as to when border crossing cards are read? Will the readers be 
integrated into US VISIT eventually?
    Answer. In certain circumstances, Homeland Security's Customs and 
Border Protection (CBP) officers may have reason to believe the person 
presenting the BCC is not the person to whom it was issued. At that 
point, the individual is sent to secondary inspection to determine if 
there are any problems with the BCC, which could include running the 
BCC through a biometric reader or processing the person through US 
VISIT.

                    IDENT/IAFIS INTEGRATION PROJECT

    Question. The Department of Justice Office of Inspector General 
issued a report on the progress made in integrating the biometric 
systems of the Department of Homeland Security and the Department of 
Justice. While the report does not make specific recommendations to the 
Department of Homeland Security, it does state that the IDENT/ENFORCE 
project team reports through the US VISIT program office. Further, it 
indicates that some of the delay in implementing the integration is due 
to the emphasis that is being placed on the roll-out of US VISIT. Is 
this project receiving enough support and attention? Should a separate 
project office be set up to implement this program?
    Answer. The implementation of IDENT/IAFIS is a top priority at both 
DHS and DOJ, and a working group has been developed of representatives 
from DOJ, FBI, CBP, ICE, USCIS and US VISIT to define plans for 
completion of IDENT/IAFIS implementation at all 115 Air, 14 Sea, 165 
Land Border POEs, as well as all Border Patrol Stations and specified 
ICE locations.
    Question. Have you finalized a deployment schedule to roll-out 
Version 1.2 of the IDENT/IAFIS integration project to all Border Patrol 
facilities? When will the Version 1.2 roll out be completed?
    Answer. Currently a comprehensive plan to complete implementation 
of Version 1.2 of the IDENT/IAFIS integration project is being 
developed including components from FBI, DOJ, CBP, ICE, USCIS and US 
VISIT. The implementation of 70 percent of Border Patrol Facilities is 
scheduled for the end of this year, and the remaining 30 percent by the 
end of next year.
    Question. What consideration is being given to rolling out the Real 
Time Image Quality software developed for US VISIT to other IDENT 
stations in order to improve the quality of the fingerprint being 
captured?
    Answer. The use of the real time image quality capture inside of US 
VISIT has been a significant enhancement to US VISIT. This capture 
improvement has really enhanced US VISIT and expanding this to IDENT is 
currently a system change request for the contractors to implement.
    Question. What funds will the Department be dedicating to this 
project in fiscal year 2004, and what account will fund this project?
    Answer. US VISIT is working to obtain approval to utilize $4 
million (which remains unexpended) from the $10.1 million received as 
part of the 2002 Counter Terrorism funding (Public Law 107-117).
    Question. What funds are requested for fiscal year 2005?
    Answer. $3 million from base resources will be used in fiscal year 
2005 to complete IDENT/IAFIS deployment.

                     72-HOUR RULE--SOUTHWEST BORDER

    Question. As the Border and Transportation Security Directorate 
moves forward with implementing the US VISIT system, what is the 
Department's position on revising the 72-hour rule to allow Mexican 
citizens that have been cleared to possess a border crossing card to 
stay in the United States for a longer period of time?
    Answer. While the Department of State adjudicates the application 
for a Border Crossing Card (BCC), DHS is responsible for establishing 
the policy surrounding the use and eligibility of such a visa document.
    Many Mexican citizens who travel to and from the United States 
regularly apply for a multi-use travel document, also known as a 
``laser visa,'' which serves as either a BCC or a B1/B2 visa. Mexican 
citizens who use the travel document only as a BCC will not initially 
be subject to US VISIT processing during primary inspection inasmuch as 
their biometric data (fingerscans and photographs) is captured during 
the BCC issuance process. This is an interim solution for the land 
border while the Department explores the long term solution to record 
the entry and exit of persons crossing our land ports of entry. As the 
next phase of US VISIT is implemented at southern land ports of entry 
by the end of 2004, if a Mexican citizen chooses to use the BCC as a 
B1/B2 visa (traveling outside the ``border zone'' and/or staying longer 
than 72 hours in the United States), he or she will undergo US VISIT 
processing at the land border secondary inspection areas. Readers for 
BCC's will be deployed at the 50 busiest land ports of entry by the end 
of June 2004.
    Question. When does the Department plan to move forward with 
revising the rule?
    Answer. We hope to complete our review soon. Once the review of the 
BCC document is complete, we'll be able to make a more informed 
decision regarding this rule.

                  STAFFING OF UNDER SECRETARY'S OFFICE

    Question. The Border and Transportation Security Directorate 
oversees 20 percent of the entire Department's budget--with such 
disparate areas as trade enforcement, airport screening, protection of 
Federal facilities, and training inspectors. Not only is the 
responsibility wide, but it includes arguably the organization with the 
most difficult management problems. For the last year, the Under 
Secretary for Border and Transportation Security's office has relied 
heavily on detailees from within the Department and even from 
organizations outside of the Department of Homeland Security. 
Currently, 56 percent of the filled positions in the office are staffed 
by detailees. Have you been able to move ahead with hiring permanent 
employees? Do you expect the office to be fully staffed by permanent 
employees by the end of fiscal year 2004?
    Answer. We have aggressively pursued the permanent staffing for the 
Office of the Under Secretary. We have entered into an interagency 
agreement with the Office of Personnel Management to provide dedicated 
position classification and staffing services to this office and fully 
expect to have selections made for all permanent staff by the end of 
fiscal year 2004.
    Question. Is the Under Secretary's office staffed properly to allow 
it to oversee and coordinate such a board reach of programs?
    Answer. The Under Secretary's office is properly staffed to oversee 
the Directorate's programs. We appreciate your recognition of the 
challenges within the first year: forming the new bureaus of Customs 
and Border Protection (CBP) and Immigration and Customs Enforcement 
(ICE); fielding US VISIT system requirements on time and within budget; 
maturing the Transportation Security Administration; and reorienting 
Federal Law Enforcement Training Center's mission focus to meet the 
needs of the new Department. The Department continually assesses its 
effectiveness and efficiency, and we will promptly communicate any 
additional resource requirements, as necessary, to ensure we can meet 
our mission requirements.

                    RESEARCH AND DEVELOPMENT FUNDING

    Question. The budget proposes to transfer additional research and 
development programs out of the components within the Border and 
Transportation Security Directorate to the Science and Technology 
Directorate, but it does not transfer all of the programs. Have all of 
these research and development programs been identified? Are there more 
programs that should be transferred to the Science and Technology 
Directorate, such as the Transportation Security Lab within the 
Transportation Security Administration, or the Research, Evaluation and 
Development Branch within the Bureau of Customs and Border Protection?
    Answer. The budget proposes to transfer some Border and 
Transportation Security Directorate research and development programs 
to the Science and Technology Directorate to help improve the 
effectiveness and efficiency for certain programs. The other programs 
have synergies or considerations that require additional consideration 
before change is recommended.
    Question. Do you feel that good working relationships have been 
established between the Border and Transportation Directorate and the 
Science and Technology Directorate? Are the needs of the Border and 
Transportation Security Directorate being met?
    Answer. Yes. Since the start up of the Department, we have worked 
hand in hand with the Science and Technology Directorate. The Science 
and Technology Directorate has established a Border and Transportation 
Security Portfolio Manager. We also have a joint BTS and S&T Technology 
Working Group that is developing a technology roadmap for BTS to ensure 
we leverage technology in the most appropriate manner.

                      PERFORMANCE-BASED PAY SYSTEM

    Question. The Department's budget for fiscal year 2005 includes 
resources to implement the performance-based pay system. Did the Border 
and Transportation Security Directorate play a role in creating the 
framework for this system? Will the needs of the Border and 
Transportation Security Directorate be served by this new system?
    Answer. The Border and Transportation Security Directorate did play 
a role in creating the framework for this system which is being 
designed to meet the needs of all components of the Department. In 
April 2003, the Secretary and the Director of the Office of Personnel 
Management established a DHS/OPM HR Systems Design Team composed of DHS 
managers and employees, HR experts from DHS and OPM, and professional 
staff from the agency's three largest Federal employee unions. The DHS 
employees on this 48 member team represented a cross-section of the 
Department including employees from the following components within the 
Border and Transportation Security Directorate: the Bureau of 
Immigration and Customs Enforcement; the Federal Law Enforcement 
Training Center; the Transportation Security Administration; and the 
Bureau of Customs and Border Protection.
    During April and July of 2003, this team entered a research and 
outreach phase, examining promising and successful practices and 
conducting a series of town hall meetings and focus groups across the 
country in order to inform employees about the design process and to 
solicit employee's perceptions of current HR policies. These outreach 
sessions included employees from across DHS, including a representative 
sample of employees from the Border and Transportation Security 
Directorate.
    As a result of the work of the Systems Design Team, 52 options were 
presented to a Senior Review Committee whose members included two top 
officials from the Border and Transportation Security Directorate: 
Robert Bonner, Commissioner of Customs and Border Protection; and James 
Loy, then Administrator, Transportation Security Administration.
    One of the roles of this Committee was to discuss the work of the 
Design Team and to express views that would inform decisions to be made 
subsequently by DHS Secretary Ridge and OPM Director James regarding 
which systems should be implemented within DHS. The Committee members 
agreed that any new HR system for DHS must be mission-focused and that 
its design must facilitate mission performance and that HR options 
might need to be tailored to specific parts of DHS.
    The proposed regulations published in the Federal Register on 
February 20, 2004, reflect the thoughtful review and consideration by 
Secretary Ridge and Director James of all input received during the 
process as outlined above. It was determined that the regulations, as 
proposed, would best meet the needs of the Border and Transportation 
Security Directorate, as well as the Department as a whole.
    Question. What are the estimates for how much it will cost to 
implement the new performance-based pay compensation system within the 
Border and Transportation Security Directorate?
    Answer. $102.5 million requested in the President's Budget for 
implementation of the new HR system Department wide. BTS' share of 
implementation costs is covered in this request. Costing for design and 
deployment of the new HR system was identified based on independent 
government cost estimates that were developed to plan for the 
anticipated systems integration contract. Other agencies of similar 
size and complexity, notably Treasury, were benchmarked in projecting 
team size and skill levels and associated labor rates. Cost breakouts 
were estimated based on detailed GSA labor category descriptions and a 
skill analysis of the types and levels of contract employees that will 
be needed to support this effort. Major breakdown of costs includes: 
$27 million for program management, oversight and evaluation; $31 
million for training and communications to support system 
implementation; $42 million for detailed systems design and 
implementation support (business process reengineering, compensation 
expertise, etc.); and $2.5 million to fund the HQ performance pool.
    As additional background for each of the major funding categories: 
Centralized program management funding is required to manage 
appropriate cost, schedule, and control activities at the Departmental 
level, ensuring that the system investment is managed appropriately and 
at a good value. Program management funding will also provide for OMB-
required earned value management, as well as risk management and 
evaluative activities. A centralized program management philosophy, 
rather than each component attempting to manage their own 
implementation, is critical in keeping program costs down and in 
ensuring consistency of deployment across the enterprise.
    Training funds are absolutely essential in ensuring that the new HR 
flexibilities achieve the desired results. Funding is provided to 
adequately train all DHS executives, managers and supervisors on 
aspects of the new system and their responsibilities as leaders in the 
DHS environment. Training funding will also provide for awareness and 
change management activities to ensure that all DHS employees 
understand system changes. Funding will support a comprehensive HR 
certification program to ensure that DHS HR professional are prepared 
for system changes and new job responsibilities.
    Funding for detailed systems design and implementation support is 
required to provide access to experts that will assist in designing the 
particulars of the new DHS performance management system, job 
evaluation system (including the creation of job clusters), 
compensation system (including new pay ranges and market pay 
processes), linkages for pay and performance, and development of 
competencies for DHS positions. This detailed expertise is required to 
ensure that DHS designs a program that appropriately links pay, 
competencies and performance and through that linkage DHS performance 
is enhanced.
    We are projecting fully loaded life cycle costs of $408.5 million 
for complete system implementation. It is important to note that the 
$102.5 million is requested for full implementation of the new system 
(including project management, systems design, training and 
communications, etc.), not just the training aspects of system 
implementation. Major components of this figure include $102.5 million 
for system implementation, $10 million for Coast Guard performance 
pool, an estimated $165 million for other component performance pools, 
and a 6-year life cycle cost of $131 million for human resources 
information technology.
    Question. Is there a timeline as to when each of the components of 
the Border and Transportation Security Directorate will transition to 
this new compensation system? If so, what is it?
    Answer. Current plans provide for all components of the Border and 
Transportation Security Directorate, which are covered by the proposed 
regulations, to be converted to a new compensation system in January of 
2006.

                     TETHERED AEROSTAT RADAR SYSTEM

    Question. The information provided by the Tethered Aerostat Radar 
System, known as TARS, is a critical component in the Department's 
efforts to interdict illicit air traffickers. Do you believe that the 
Department of the Defense is providing sufficient support to the TARS 
program to enable the Air and Marine Program to effectively carry out 
its mission?
    Answer. The TARS program has declined from 14 operational sites to 
8 operational sites (Lajas, Puerto Rico, is due back on-line in May). 
Recent close coordination and meetings between the Department of 
Homeland Security and the Deputy Assistant of Defense for Counter 
Narcotics have resulted in frank and open discussions related to TARS. 
The dialogue is productive and ongoing at this time, and DHS' 
requirements have been acknowledged by DOD. DHS believes that this 
critical system supports homeland security and provides a critical 
detection and monitoring capability. That mission is a DOD 
responsibility. The DHS position is that Congress properly assigned the 
mission to DOD and funded TARS to meet the mission requirements.
    Question. Does the Bureau of Immigration and Customs Enforcement 
have the necessary expertise and personnel to take over the management 
and maintenance of the TARS program?
    Answer. That mission is a DOD responsibility. The DHS position is 
that Congress properly assigned the mission to DOD and funded TARS to 
meet the mission requirements.

                 TRANSPORTATION SECURITY FOR ALL MODES

    Question. Three major grant programs currently administered by the 
Transportation Security Administration involving trucking security, 
port security grants, and Operation Safe Commerce are slated to be 
moved to the Office for Domestic Preparedness under the Department's 
announced reorganization of grant programs. The fiscal year 2005 budget 
proposes to reduce or terminate funding for these programs.
    What funding will be available within the Maritime and Land 
Security operations for fiscal year 2005 to increase security for 
railways, roadways, and all other modes of transportation in light of 
the Administration's proposal to terminate funding for intercity bus 
and trucking grants?
    Answer. The responsibility of securing our Nation's rail and mass 
transit systems is a shared one. DHS, DOT, and other Federal agencies 
are working together to enhance rail and transit security in 
partnership with the public and private entities that own and operate 
the Nation's rail and transit systems. The DHS grant program for 
improving rail and transit security in urban areas has awarded or 
allocated over $115 million since May 2003. Additionally, the 
Administration has requested $24 million for TSA to advance security 
efforts in the maritime and surface transportation arenas, and has 
requested that $37 million of the Federal Transit Administrations Urban 
Security Bus grants be available for security related projects. In 
addition, DHS will conduct the following activities and initiatives to 
strengthen security in surface modes:
  --Implement a pilot program to test new technologies and screening 
        concepts to evaluate the feasibility of screening luggage and 
        carry-on bags for explosives at rail stations and aboard 
        trains;
  --Develop and implement a mass transit vulnerability self-assessment 
        tool;
  --Continue the distribution of public security awareness material 
        (i.e., tip cards, pamphlets, and posters) for motorcoach, 
        school bus, passenger rail, and commuter rail employees;
  --Increase passenger, rail employee, and local law enforcement 
        awareness through public awareness campaigns and security 
        personnel training;
  --Ensure compliance with safety and security standards for commuter 
        and rail lines and better help identify gaps in the security 
        system in coordination with DOT, with additional technical 
        assistance and training provided by TSA;
  --Continue to work with industry and State and local authorities to 
        establish baseline security measures based on current industry 
        best practices and with modal administrations within the DOT as 
        well as governmental and industry stakeholders, to establish 
        best practices, develop security plans, assess security 
        vulnerabilities, and identify needed security enhancements; and
  --Study hazardous materials (HAZMAT) security threats and identify 
        best practices for transport of HAZMAT.
    Question. How will the Transportation Security Administration 
coordinate with the Office for Domestic Preparedness on the grant 
programs (trucking security, port security grants, intercity bus 
grants, and Operation Safe Commerce) that will be moved pursuant to the 
reorganization?
    Answer. It is anticipated that TSA will continue to provide the 
necessary operational expertise for the grant programs through 
participation in pre-award management functions. These functions 
include determination of eligibility and evaluation criteria, 
solicitation and application review procedures, selection 
recommendations and post award technical monitoring. TSA will also 
continue to leverage existing transportation expertise by working with 
industry stakeholders and DOT modal administrations to ensure that 
Federal security grants facilitate the seamless integration of security 
planning activities by industry stakeholders and governmental 
stakeholders at the regional, State, and local levels.
    Question. In addition to the $169 million made available for the 
port security grant program by the Transportation Security 
Administration, $75 million was made available in fiscal year 2003 by 
the Office for Domestic Preparedness for the same purpose. Do you 
anticipate that funds will be made available once again for port 
security grants within the existing grant programs in the Office for 
Domestic Preparedness?
    Answer. The fiscal year 2005 President's budget requests $46 
million for Port Security Grants under the Office for Domestic 
Preparedness.

         TSA'S ROLE WITHIN THE DEPARTMENT OF HOMELAND SECURITY

    Question. Over 54 percent of the President's budget request for the 
Transportation Security Administration for fiscal year 2005 is 
dedicated for aviation passenger and baggage screeners' pay, benefits, 
training, and human resource services. Last year, Admiral Loy testified 
that the Transportation Security Administration was developing a 
National Transportation System Security Plan (NTSSP) to explain ``its' 
vision to complete the important task of ensuring the security of all 
modes of transportation, not just the aviation sector''.
    Will the Transportation Security Administration continue to have 
responsibility for security over all sectors of transportation or will 
aviation security continue to be the main focus for TSA?
    Answer. Ensuring that our Nation's transportation systems are 
secure must be accomplished through effective partnering between 
appropriate Federal, State, local and private industry entities. 
Although TSA was created in the wake of the September 11 attacks and 
charged with responsibility for ensuring that all modes of 
transportation are secured, the Administration has consistently held 
that that this responsibility must involve the coordination of 
appropriate Federal, State, local and private industry partners, many 
of whom were already in the business of providing security for their 
particular piece of the transportation puzzle. TSA's main charge, both 
under ATSA and now as part of the DHS family, is to coordinate these 
efforts under the guidance of the Secretary and the Under Secretary for 
Border and Transportation Security, identifying gaps and working with 
appropriate partners to ensure that existing security gaps are filled.
    Recognizing this, the Department of Homeland Security (DHS) has 
requested substantial resources in fiscal year 2005 across the agencies 
within the Department involved with securing transportation modes other 
than aviation, including resources in the Coast Guard and Customs and 
Border Protection (CBP) for ports, maritime security, and cargo 
security; in Information Analysis and Infrastructure Protection (IAIP) 
for vulnerability assessments, intelligence, and infrastructure 
protection for all sectors including transportation; and in Emergency 
Preparedness & Response (EP&R) for emergency response to only name a 
few. In addition to working with other DHS components, TSA works 
closely with our sister Federal agencies outside of DHS to ensure that 
all government resources are maximized. For example, under the 
leadership of BTS and DHS, TSA is coordinating key standards-setting 
efforts in areas such as transit and rail security, and is working 
closely with modal administrations of the Department of Transportation 
to help leverage their existing resources and security efforts to 
accomplish security goals.
    Question. When can we expect the National Transportation System 
Security Plan and what role will the Transportation Security 
Administration play in securing all modes of transportation?
    Answer. TSA's role in securing the transportation system begins at 
the system or sector-wide level, across the individual modes, thus 
ensuring consistency and consideration of inter-modal issues (such as 
assets, incidents, or supply chains that straddle multiple modes, and 
inter-modal exercises). The Department of Homeland Security (DHS) has 
assigned TSA primary Sector Specific Responsibility (SSR) for the 
Transportation Sector as DHS implements Homeland Security Presidential 
Directive 7 (HSPD-7), which directs the establishment of ``a national 
policy for Federal departments and agencies to identify and prioritize 
United States critical infrastructure and key resources and to protect 
them from terrorist attacks.'' In accordance with DHS's HSPD-7 
implementation plan, TSA is developing the Transportation Sector 
Specific Plan (SSP). A first draft of the SSP is due to DHS by early 
summer, 2004 (at the same time when SSPs from the other 12 sectors of 
critical infrastructure are also due). In developing the transportation 
SSP, TSA is working under BTS guidance and with partners in the U.S. 
Coast Guard and the Department of Transportation (DOT). The SSP will 
discuss how Federal and private-sector stakeholders will communicate 
and work together; how important assets in the transportation sector 
will be identified, assessed, and prioritized; how protective programs 
will be developed; how progress in reducing risk will be measured; and 
how R&D will be prioritized in the sector. In the Transportation 
Sector, the SSP will further these efforts currently underway and help 
ensure that they are systematic, complete, and consistent with the 
efforts in the other 12 sectors.
    Prior to the issuance of HSPD-7, TSA was TSA was developing the 
National Transportation System Security Plan (NTSSP). Its purpose was 
to provide a systematic sector-wide approach to Transportation 
Security, to pull all Federal partners into the effort together, and to 
provide guidance to the writers of Modal Security Plans. Now HSPD-7 is 
driving an economy-wide systematic approach to Infrastructure 
Protection, including the Transportation SSP described above. The SSP 
will be expanded into a ``new'' NTSSP, by adding additional chapters 
(some already drafted in the ``old'' NTSSP) to complete the original 
intent of the NTSSP. This includes guiding development of Modal 
Security Plans, providing explicit links to other Federal plans such as 
the National Response Plan (NRP) and the National Incident Management 
System (NIMS), and other operational guidance. On behalf of DHS and in 
conjunction with other Federal agencies, the completed NTSSP will guide 
and integrate a family of security plans to prevent, mitigate, and 
respond to intentional disruption of the Nation's transportation 
systems while ensuring freedom of movement for people and commerce.
    Parts of the draft ``old'' NTSSP are already in use, as the USCG 
drafts the MTSA-mandated Maritime Transportation Security Plan, and as 
other modal security plans begin development. A draft of the ``new'' 
NTSSP should be completed by the end of summer, 2004.
    TSA's role within each sector will vary from mode to mode. In 
aviation security, TSA has the operational and regulatory lead role. 
TSA's efforts in non-aviation security over the past 2 years have 
focused on greater information sharing between industry and all levels 
of government, assessing vulnerabilities in non-aviation sectors to 
develop new security measures and plans, increasing training and public 
awareness campaigns, and providing greater assistance and funding for 
non-aviation security activities. In partnership with other component 
agencies of DHS and in coordination with DOT, State, local and private 
sector partners, TSA will continue to leverage existing security 
initiatives, coordinate the development of national performance-based 
security standards and guidance; identify areas where regulations may 
be necessary to improve the security of passengers, cargo, conveyances, 
transportation facilities and infrastructures; and identify areas where 
better compliance with established regulations and policies can be 
achieved. TSA will work with DHS components, modal administrators 
within DOT, and its government and industry stakeholders to continue 
these efforts, establish best practices, develop security plans, assess 
security vulnerabilities, and identify needed security enhancements.
    Question. The Homeland Security Act of 2002 requires the 
Transportation Security Administration be maintained as a distinct 
entity within the Department of Homeland Security for 2 years from the 
date of enactment with the sunset of the Transportation Security 
Administration as a distinct entity within the Border and 
Transportation Security Directorate to occur November 2004. How do you 
envision the Transportation Security Administration's role within the 
Department of Homeland Security if not maintained as a separate 
distinct entity in the Border and Transportation Security Directorate?
    Answer. The Homeland Security Act requires that TSA be maintained 
as a distinct entity for 2 years after enactment. As an integral part 
of the Border and Transportation Security Directorate, TSA is currently 
providing a robust security framework in the aviation environment and 
coordinating closely with other DHS and DOT partner agencies both to 
identify security vulnerabilities in other modes of transportation and 
identify appropriate mitigation strategies to reduce those 
vulnerabilities. Further, TSA is coordinating Federal efforts to 
develop the transportation chapter of the National Critical 
Infrastructure Protection Plan (NCIP) being developed as a result of 
Homeland Security Presidential Directive (HSPD) number 7. At this time 
there are no plans to alter TSA's status as a distinct entity within 
the BTS Directorate; however, the Secretary continually reviews the 
missions and programs of each DHS component to ensure that they 
complement, rather than duplicate the missions of any other. In the 
event that the Secretary decides, under authority conferred upon him by 
Section 872 of the Homeland Security Act, to reorganize any of the 
components of the Department including the TSA, appropriate 
notification will be provided to relevant Congressional committees by 
the President.

                    FEDERAL SCREENER OPT-OUT PROGRAM

    Question. The Aviation and Transportation Security Act passed 
shortly after the terrorist attacks of September 11, 2001, provided for 
the ability of airports to apply to the Department of Homeland Security 
to opt-out of using Federal screeners and to use qualified private 
screening companies at the end of a 3-year period which occurs this 
November 2004.
    When do you anticipate the results of the Department's study on the 
private screening companies that have been providing passenger 
screening at the five airports participating in the pilot program will 
be made available?
    Answer. TSA hired BearingPoint to conduct an independent 
performance evaluation of the private contractor screening compared to 
Federal screening. The study evaluated performance in security, 
compared costs, and analyzed customer/stakeholder satisfaction. It 
concluded that TSA has succeeded in developing and executing a pilot 
program that both meets the Congressional requirements and ensures 
outstanding security. Results of the study were made public on April 
22, 2004 and are available on TSA's web site at http://www.tsa.gov/
interweb/assetlibrary/Summary_Report.pdf.
    Question. Do you feel that there will be a large number of airports 
that will apply to use private screeners rather than continue to use 
Federal screeners?
    Answer. Under ATSA, individual airports may, starting on Nov 19, 
2004, submit proposals to ``opt out'' of having Federal passenger and 
baggage screening and to return to private companies providing those 
security services under contract to and close oversight by TSA. TSA 
continues to work with its key stakeholders for the development of an 
application process for airports who are interested in opting out. TSA 
is in the early stages of developing an efficient, understandable, and 
effective procedure for opt-out applications and is currently drafting 
the specific contents of the opt-out guidance. At this time, it is 
still unclear how many airports will seek to opt out. Most airports are 
awaiting additional details regarding the application process and 
parameters of the program before making a decision. Should an airport 
request to opt out, its application must be assessed and approved by 
the TSA Administrator. TSA is committed to ensuring a fair, supportive 
transition program that recognizes the outstanding skills of TSA's 
current work force.
    Question. With the opt-out date approaching rapidly, when do you 
anticipate providing guidelines, application procedures, and approval 
criteria for the airports that are trying to decide whether or not to 
apply to use private screening companies?
    Answer. TSA is currently working to develop guidelines for the opt-
out program. TSA hopes to release initial guidance in late May or early 
June. This guidance will consist of an overview of issues such as, 
indemnification and reimbursement to contractors, the application and 
award process, and delineating clear roles and authority for TSA 
headquarters, the Federal Security Directors and their staff, and the 
airports and contractors, that will help airports gauge their level of 
interest in the opt-out program.
    Question. With $119 million provided this year for the private 
screening pilot programs and only a $10 million increase requested for 
fiscal year 2005, how do you anticipate providing funding for 
additional airports that may apply to use private screeners?
    Answer. The Administration did not request a separate funding line 
item for private screening for precise reason that we cannot predict in 
advance what airport interest will be in an opt-out program. All 
funding requested was rolled up into one screener line, and it is 
critical that the Congress provide maximum flexibility to allocate 
resources. Supporting budget documents showed a level of $130 million 
purely for display and comparability purposes. This amount will provide 
sufficient resources to maintain contract screener operations at the 
five pilot airports through the end of fiscal year 2005. Actual funding 
needs for contract screening operations may be higher or lower 
depending on a variety of factors such as the current evaluation of 
contract screening, the program's future deployment and management 
structure, the level of interest garnered from the airport community, 
and the time it takes to smoothly transition airports into and/or out 
of contract screening. TSA will adjust resources between Federal and 
contract screeners as necessary.

                FEDERAL LAW ENFORCEMENT TRAINING CENTER

    Question. The United States Coast Guard and the Federal Law 
Enforcement Training Center recently announced plans to transfer the 
United States Coast Guard's Maritime Law Enforcement School to the 
Federal Law Enforcement Training Center in Charleston, South Carolina. 
What impact will this proposed change have on the Department of 
Homeland Security and what additional fiscal year 2005 funding will 
this consolidation require?
    Answer. At the U.S. Coast Guard's request, the Maritime Law 
Enforcement School located at Coast Guard Training Center Yorktown, VA, 
and the Boarding Team Member School located at Coast Guard Training 
Center Petaluma, CA, will be merged, relocated and commissioned as the 
Coast Guard Maritime Law Enforcement (MLE) Academy at the Federal Law 
Enforcement Training Center in Charleston, SC, by October 1, 2004. Both 
the Coast Guard and the entire Department of Homeland Security (DHS) 
will benefit by this consolidation of law enforcement training 
functions. To reflect the increase in Coast Guard mission capabilities 
and training requirements, the MLE Academy will be established to 
provide expanded training for their personnel in support of maritime 
homeland security and law enforcement. The MLE Academy will provide for 
the training of maritime law enforcement capabilities central to all 
Coast Guard maritime security missions. The MLE Academy will also 
provide training to local and State law enforcement personnel in 
support of the Federal Boat Safety Act. It will cost approximately $4 
million to relocate the Coast Guard MLE Schools to the FLETC 
Charleston. This includes one new building, a personal defensive 
tactics building. The FLETC will fund $2 million for construction and 
renovations. The U.S. Coast Guard will fund approximately $2 million 
for transportation of existing equipment, relocation of personnel, 
dependents and household goods, boarding platform training aids, 
installation of a simunitions lab and telecommunications 
infrastructure.
    The Coast Guard will move 50 positions (FTP) to Charleston, SC. The 
positions come from the USCG training centers at Yorktown, VA (36) and 
Petaluma, CA (14).
    The Coast Guard estimates it will train 1,872 students annually.
    The affiliation and co-location with of the Coast Guard with the 
FLETC provides them a first step towards standardization. It will 
enhance their law enforcement training and promote better coordination 
among field activities with their sister agencies. Both the Coast Guard 
and the entire Department of Homeland Security (DHS) will benefit by 
this consolidation of law enforcement training functions. The Homeland 
Security Act consolidated 22 agencies in creating the Department of 
Homeland Security, and established Law Enforcement as one its core 
missions. The Maritime Transportation Security Act (MTSA) directed the 
integration of standards and training curriculum for ``maritime 
security professionals.''
                                 ______
                                 

            Questions Submitted by Senator Richard C. Shelby

    Question. Over the last two funding cycles, Congress has provided 
$85 million to the TSA for development, tech evaluations, pilot 
programs, and rollout of a Transportation Worker Indentification Card 
(TWIC). How many TWIC cards have been issued to date? What has the TSA 
spent this $85 million on?
    Answer. The Consolidated Appropriations Resolution, 2003, provided 
$35M for the Transportation Worker Identification Credential (TWIC) and 
Registered Traveler (RT) programs. Of this total, $25 million was 
initially assigned to TWIC, and $10 million was assigned to RT. TWIC 
spent a total of $15 million on planning and executing the Technology 
Evaluation Phase. TSA internally reallocated $5 million and returned 
the remaining $5 million to the Treasury. The $10 million for RT was 
subsequently reallocated internally. The fiscal year 2004 Appropriation 
Act provided $50 million to TWIC to support planning and execution of 
the Prototype Phase. Our most recent analysis indicates that $50 
million is sufficient for this task. To date no operational TWIC cards 
have been issued. It is estimated that up to 200,000 cards may be 
issued during the Prototype Phase.
    Question. When Congress tasked TSA and the Department of 
Transportation with developing a plan to protect our transportation 
infrastructure, Secretary Mineta moved forward with a vision for how a 
transportation credential should work. Unfortunately, implementation 
appears to have been hindered by poor leadership and a shifting idea of 
what TWIC should be and how it should be implemented. Where is the 
problem?
    Answer. TWIC development continues to move forward as planned. 
During the early stages of the development process, data, technical 
information and lessons learned were gathered from a wide range of 
sources including industry stakeholders and other Federal credentialing 
projects. The RFP for the TWIC Prototype Phase will be released in the 
immediate future. The proposed plan leverages the stakeholder 
relationships established over the past 24 months and during the 
Technology Evaluation Phase, as well as a partnership with the State of 
Florida for the network of deep-water ports. The goal of the prototype 
is to evaluate the full range of TWIC business processes within a 
representative operational environment. The plan includes facilities 
and workers from all transportation modes and is focused in three 
regions, Philadelphia-Wilmington, Los Angeles-Long Beach, and the 
Florida ports.
    Various card production options were evaluated within the context 
of system requirements. Centralized card production using existing 
Federal card production facilities that meet all of the system 
requirements was determined to be the most cost effective solution for 
the prototype phase. Key factors in the evaluation included: physical 
security and controlled access to the production process; secure supply 
chains for card stock and special security features (e.g. holograms, 
special inks, secret keys); standardization of training; and, economies 
of scale with high capacity production machines. Centralized card 
production will be further evaluated during the prototype, and the 
final evaluation report will include a detailed analysis on all card 
production options and a recommendation for DHS decision.
    Question. According to your written testimony, you have combined 
the credentialing under one program and have requested $20 million for 
that line item. I am told that this request is nearly $100 million 
below the level TSA needs to implement the program for only the highest 
risk areas and fully $150 million below the level needed for full and 
timely implementation system wide. How do you plan to make up this 
shortfall?
    Answer. The fiscal year 2005 President's Request includes $50 
million in fee spending authority for the TWIC program. As prototype 
planning continues, we have continued to explore questions surrounding 
the population size, technological requirements, and methods for 
achieving rapid implementation. This planning will be shared with 
Congress once completed.
    Question. It is my understanding that while the fiscal year 2003 
bill required a thorough evaluation of all technologies, the $85 
million would be adequate to evaluate and establish a basic framework 
and prototype for a TWIC. Why now are you asking for more money to 
complete this part of the project?
    Answer. The funds that have been provided by Congress have enabled 
TSA to complete the planning and technology evaluation phases and will 
enable TSA to execute the Prototype Phase. In anticipation of a 
successful completion of the prototype with positive results, TSA is 
requesting $50 million in fiscal year 2005 to begin TWIC 
implementation.
    Question. Does TSA anticipate establishing a fee for the access and 
administration of the TWIC? If so what will this fee fund? When can we 
expect these programs to be fully underway?
    Answer. The TWIC concept is a Federally-led public-private 
partnership to improve security across the transportation system. 
Accordingly, as authorized by Congress, TSA envisions that a fee would 
be collected for each credential issued and would fund the cost of 
enrollment, card production and issuance, identity management, network 
infrastructure, and revocation alerts. Transportation facilities will 
be responsible for access control systems and any modifications that 
they choose to make in accordance with their own security plans.
    The Prototype Phase is planned to be implemented over 7 months. 
Upon completion of Prototype, DHS will review the data and decide how 
best to implement the findings. TSA anticipates that we could begin 
shortly thereafter to execute that decision.
    Question. As I remember the original timetable, our ports and 
greater transportation system should now be operating under a 
credentialing system that will provide increased security through use 
of a TWIC card and the requisite card readers and databases. The TSA 
TWIC website outlines the three goals of the program as to: improve 
security, enhance commerce, and protect personal privacy. Has the 
lengthy process in some way increased the potential of accomplishing 
these goals? What are we getting for increased costs and missed 
deadlines?
    Answer. The evolution of the program will result in a more robust 
Prototype Phase that incorporates a process for collecting data that 
will allow the exploration of multiple options for TWIC implementation, 
including detailed cost-benefit analysis, assessment of feasibility of 
use by facilities multiple disparate business practices, and more 
inclusive, in-depth consultations with stakeholders.
    Question. What have you done to ensure the security of the card? 
Can you offer me assurances that the security efforts you have taken 
will stand up to the test?
    Answer. TWIC views security from a system perspective. TWIC is not 
just a secure ID card, but it is also an identity management solution 
that leverages advanced security technology and procedures to deliver 
an overall chain of trust. Both the Technology Evaluation Phase and the 
upcoming Prototype Phase include extensive evaluation of security 
features, and security testing and evaluation will be an ongoing part 
of the TWIC program.
    For the card specifically, TWIC is using advanced security features 
that leverage the strength of the core technology. The surface-based 
technology will include special inks, security overlays and complex 
visual design features that will counter attempts to forge or tamper. 
The Integrated Computer Chip (ICC) is based on the NIST Government 
Smart Card Specification and complies with a number of security 
protocols and validations. The ICC includes encryption, secret keys, 
and active defenses. TWIC will also use a biometric securely embedded 
in the ICC to link the individual positively to the completed 
background check and to updates to that background check.
    Question. Concerns have been raised that TWIC will hinder rather 
than enhance commerce. Can you provide data on what kind of delays will 
occur due to TWIC access requirements?
    Answer. One of TWIC's three goals is the enhancement of commerce. 
The TWIC architecture was developed using extensive stakeholder inputs. 
The TWIC Integrated Project Teams (IPT) have been working with regional 
stakeholders to develop site level implementation plans, which will 
enhance commerce at these sites. During the Technology Evaluation 
Phase, access control transaction times were measured using a range of 
technologies. These results were incorporated into the planning for the 
Prototype Phase, which will further refine the process. The Prototype 
Phase evaluation report will include extensive data on all aspects of 
access control transactions, including time and impact to the 
commercial process.
    Question. Delays are causing problems down the line for my, and I 
am sure many other senators, constituents. Recently, I was asked by one 
of my constituents whether they should move forward with their own 
credentialing system upgrades. I was remiss to inform him that it did 
not appear TWIC would be available for use in the foreseeable future. 
My constituent informed me that because of these delays he would be 
forced to move forward with upgrades of his own that may or may not 
work within the TWIC system. It seems ridiculous to force constituents 
committed to security to invest in multiple technologies. Mr. 
Secretary, that does not appear to enhance commerce to me, does it to 
you? Are we supposed to have a seamless system?
    Answer. TSA shares your determination to maximize the benefits of 
TWIC while minimizing financial or technological burdens on 
stakeholders. Consequently, a guiding principle in the design of TWIC 
is that the credential be interoperable with existing security systems. 
TWIC envisions a secure identity management tool that can be used in 
existing access control systems. TSA is communicating with stakeholders 
in order to update them on the direction of our work and thereby assist 
them to make informed decisions about security investments.
    Question. In addition, I am always concerned about the privacy of 
individuals. Many have raised concerns about the TWIC and its 
relationship to a national ID system. How will you protect the 
information? How will you guarantee the security of the personal 
information required to attain the TWIC?
    Answer. Protection of personal privacy is one of the program's key 
goals, having been seamlessly integrated in planning from the initial 
system design. The DOT lead privacy advocate was a member of the 
original design team. The TWIC team has and will continue to work with 
the DHS and TSA Privacy Officers to ensure that TWIC remains faithful 
to our stated goals.
    TWIC recognizes that acceptance of the credential is inexorably 
linked to the holder's confidence that his or her privacy will be 
respected. TWIC is designed to operate on the minimum amount of 
personal information, which will be securely stored and encrypted. 
Access to personal information will be controlled and auditable. All 
information that will be gathered is subject to a formal privacy impact 
assessment.
    Question. The focus of TSA and the Directorates funding is towards 
Airline Security. As I understand it, the TWIC will increase security 
across the transportation system as a whole. In fact, at some point 
Admiral Loy characterized TWIC as a ``Flagship Program''. If this is a 
``Flagship Program'', what is the delay in implementation? What are you 
doing to fix this problem?
    Answer. TWIC remains an important initiative for DHS and TSA. The 
longer timeline is indicative of the need to explore different options 
on how best to implement an identity management system for 
transportation workers across multiple facilities, consultation with 
stakeholders, and to incorporate learning into the development process.
    Question. Mr. Secretary, what have you done to ensure that 
evaluation of TWIC moves forward in a manner that does provide the tax 
payer with a safe and secure transportation system, while improving the 
flow of commerce and constantly ensuring our citizens privacy?
    Answer. We recognize the urgency of the advancing this program. The 
Prototype Phase is scheduled to begin in the summer of 2004 and last 8 
months. We are committed to a fast track process for review of the 
results of the Prototype Phase and making final decisions on 
implementation.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

             CAPPS II--AIRLINE PASSENGER INFORMATION SYSTEM

    Question. Mr. Secretary, the fiscal year 2004 Homeland Security 
Appropriations Act included a provision requiring the General 
Accounting Office (GAO) to review the privacy and security of the 
proposed CAPPS II airline passenger pre-screening system. Last month, 
the GAO submitted a report to us that stated that your Department has 
met only one of the eight criteria that we set out before you could 
move ahead with deployment of the system.
    I understand that the Department concurs with GAO's findings. Where 
is DHS now in testing of the CAPPS II system? What is your timeframe? 
How long do you expect to test the system?
    Answer. Seven of the eight areas identified by the Congress could 
not be certified by the GAO as having been completed, as they are 
contingent on testing of CAPPSII. System testing can only begin once 
TSA obtains a significant quantity of PNR data from airlines or from 
U.S. Customs and Border Protection (CBP) under the terms of an 
agreement DHS reached with the European Commission for CBP's use of 
such data. However, the agreement has not yet been ratified by the 
European Parliament. Once PNR data is received for testing purposes, 30 
days is required for evaluation of the data. Testing will then be 
conducted for 30 days, followed by 30 days for analysis of the test 
results. Once testing is complete, the seven remaining areas of 
interest to the Congress can be certified by the GAO.

                           CAPPS II--TESTING

    Question. One of the concerns about the testing of the proposed 
CAPPS II system has been the lack of access to actual traveler data to 
test the system. Airlines have been reluctant to voluntarily provide 
data because of the very real concerns of privacy groups about how that 
data will be used. Some have stated that this lack of data for testing 
is one of the reasons why some of the specific criteria laid out in the 
Appropriations Act have not been met. There is some speculation that 
the Department is planning to issue regulations to compel airlines to 
provide data for the purposes of testing.
    Can you confirm for the Subcommittee whether the Department is 
planning to compel airlines to provide data on travelers for the 
purposes of testing CAPPS II? Will you provide this Subcommittee notice 
of your plans prior to making any public notice? Also, of the funds 
requested for this program in the fiscal year 2005 budget request, what 
is requested solely for additional testing of the program--as opposed 
to implementation and operation of the system?
    Answer. TSA plans to use the Notice of Proposed Rulemaking (NPRM) 
vehicle to seek public comment on the collection of Passenger Name 
Record (PNR) data for the operation of the CAPPS II program, and would 
likely issue an order compelling the collection of historical PNR data 
for testing purposes simultaneously with publication of that NPRM. Each 
of these documents would require regulated parties to take reasonable 
steps to ensure that passengers are provided notice of the purpose for 
which the information is collected, the authority under which it is 
collected, and any consequences associated with a passenger's failure 
to provide the information.
    As mentioned above, system testing can only begin once TSA obtains 
a significant quantity of PNR data from airlines or from U.S. Customs 
and Border Protection (CBP) under the terms of an agreement DHS reached 
with the European Commission for CBP's use of such data. However, the 
agreement has not yet been ratified by the European Parliament.
    There are two components to the plan for CAPPS II testing: testing 
with historical PNR data and full system testing that would take place 
once connectivity is established with an airline to test with live 
data. TSA estimates the cost associated with completing system and 
performance testing at $5 million. This involves testing to the system 
``end to end'' to validate the ability of the system to receive all of 
the different types of records from the airlines and post the results 
of the risk assessment to the boarding pass. Once system testing has 
been completed, performance testing is required to verify that the time 
required to complete each end-to-end transaction meets the system 
performance standards.
     fingerprint database integration: vastly delayed and dangerous
    Question. Last week, Department of Justice Inspector General Glenn 
A. Fine released a report that examined the case of a Mexican citizen, 
Victor Manual Batres, who had been detained by the Border Patrol on two 
occasions in January 2002 for illegally entering the United States. 
Both the Department of Justice and the Department of Homeland Security 
say they recognize that the databases need to be integrated, however 
the IG report found uncertainty as to who is responsible for the 
overall management of the integration project. It states that Justice 
and Homeland have yet to enter into a memorandum of understanding 
delineating the specific roles and responsibilities of each agency in 
the project. It also finds that the integration project recently has 
been slowed by the attention placed by Homeland on other technology 
projects, such as US VISIT. You may recall that I raised this issue 
with Secretary Ridge last year when he met with Senator Cochran and me 
to discuss fingerprint database integration as it related to US VISIT. 
Last week, Secretary Ridge acknowledged this problem and pledged to 
find $4 million this year to begin to ``fix'' it. From which sources 
will you find these funds and when can we expect to receive a 
reprogramming or transfer proposal?
    Answer. The Department of Homeland Security is committed to 
accelerating implementation of IDENT/IAFIS 10 fingerprint capability 
for enforcement processing at ports of entry, and at Border Patrol 
locations and Immigration and Customs Enforcement offices.
    While we begin planning our implementation plan, we plan on using 
$4 million of the remaining funds provided in Public Law 107-117 
(fiscal year 2002 counter-terrorism funding) for IDENT/IAFIS 
implementation. The $4 million, when combined with fiscal year 2003 
funds already provided ($3.5 million obligated for IDENT/IAFIS), will 
allow BTS to implement IDENT with 10 print capabilities in secondary 
inspection at 115 airports, 14 seaports and 50 of the largest land 
border ports. In addition, this funding will support implementation of 
the IAFIS/IDENT 10 print capability at 70 percent of the Border Patrol 
stations. The remaining land ports of entry, 30 percent of the Border 
Patrol stations and major ICE locations (to be determined) will receive 
this capability early in calendar year 2005. Funding for fielding these 
capabilities is estimated to be approximately $3 million, including the 
implementation of IDENT/IAFIS at Border Patrol stations will provide 
the capability to biometrically identify and/or perform status 
verifications on individuals suspected of illegally crossing the 
border. Implementation at ICE offices will support investigation of 
individuals apprehended for overstays and/or watch list hits.
    Question. The IG report made a series of recommendations to 
expedite integration of IDENT/IAFIS. Does this mean that your 
Department will take the lead responsibility in merging these data 
bases so that similar tragedies can be prevented in the future? How 
long will a full integration take and how much is it likely to cost?
    Answer. Yes, the Department of Homeland Security will work with the 
Department of Justice to accelerate our integration into the FBI's 
IAFIS (10 print, criminal history) and the legacy INS IDENT (2-print, 
immigration) systems. An integrated workstation has already been 
developed. It has been deployed to a limited number of sites. DHS 
intends to complete deployment of this capability in 2005. The total 
cost for fielding the capability is expected to be $7 million and will 
be funded within existing resources.

                     FEDERAL AIR MARSHALS: STAFFING

    Question. Your budget request for the Federal Air Marshals is 
essentially a flat-line request similar to last year's funding level. 
Yet on two occasions in less than a year--late last summer and again 
over the recent winter holidays--you increased the threat level to Code 
Orange--in large part because intelligence and other indicators lead 
you to believe there were enhanced threats to the United States via 
airplanes flying into or over this country.
    However, based on budget briefings with my staff, I understand that 
the resources directed to this program are not sufficient to hire the 
number of Air Marshals that should be hired to maintain a more robust 
presence on targeted flights. If that is indeed accurate, why are you 
not requesting more funding for hiring additional air marshals, 
expanding their training, and increasing the tools at their disposal 
for protection of airplanes and their passengers?
    Answer. The Department of Homeland Security (DHS) continues to view 
the Federal Air Marshal Service (FAMS) as a fundamental component of 
our national security plan and overall counter-terrorism efforts. The 
services provided by the FAMS are integral to our efforts to instill 
and sustain public confidence in our civil aviation system and for 
providing an expanded law enforcement capability in our skies that 
previously did not exist. In fact, within the span of roughly two and a 
half years the FAMS has fielded a trained work force of literally 
thousands of Federal Air Marshals to protect America's citizens and 
interests in our commercial air transportation system.
    In this same time, DHS has also worked with the Congress to invest 
in, develop and implement a layered security plan that encompasses the 
coordinated efforts of an entire spectrum of Federal, State and local 
agencies. These agencies are working together to provide an array of 
intelligence, enforcement and protection services to our civil aviation 
system, our borders and to other areas vital to the Nation. Under this 
strategy, we have established mechanisms and programs designed 
specifically to complement one another within the limited resources 
afforded to the Department. For example, DHS has invested in cutting 
edge technology to airport and baggage screening activities; we have 
hardened cockpit doors; we have established a Federal flight deck 
officer training program; and we are continuously working to apply the 
latest intelligence information in shaping our decision-making and 
response to terrorist threats.
    The Department has also evaluated how to best use Federal Air 
Marshals to expand their effectiveness and overall impact. The FAMS was 
recently transferred from the Transportation Security Administration 
(TSA) to the U.S. Immigration and Customs Enforcement (ICE). This 
fusion of the FAMS into ICE not only establishes an integrated 
enforcement presence in the aviation sector; it enhances ICE's overall 
capabilities and resources to enforce its mission, which is to detect 
and prevent vulnerabilities or violations that threaten the Nation's 
homeland security. Furthermore, this realignment has made possible 
other initiatives such as the Mission Surge Program, which will pair 
Federal Air Marshals with ICE agents during peak threat periods, such 
as the Code Orange alerts or other such events.
    In addition to Mission Surge, the Department is also evaluating 
ways to capitalize on the presence of thousands of Federal law 
enforcement personnel using the civil aviation system to travel on a 
daily basis. Although these personnel cannot replace a Federal Air 
Marshal, they are armed and capable of providing a level of security in 
the case of an in-flight event. This initiative, known as the Force 
Multiplier Program, is in its infancy.
    Through this layered approach, the Department continues to make 
significant progress in our counter-terrorism efforts and capabilities. 
The Department will continue to work with you and other members of the 
Congress towards addressing your concerns and best meeting the Nation's 
homeland security requirements.

                       US VISIT: FULL DISCLOSURE

    Question. Last year Secretary Ridge took the old visa tracking 
system known as ``entry-exit'' and as one of his first acts he gave it 
a snazzy new name befitting the new Department--US VISIT--or the United 
States Visitor and Immigrant Status Indicator Technology. He also 
committed that US VISIT would be operational at all of our Nation's 
international airports and seaports by January 1, 2004. After some 
lobbying by the airlines, who were concerned about possible problems 
standing up the system--and leery of the prospect of long lines of 
weary holiday travelers, he pushed back the operational day to January 
5. By all accounts, the system worked, there were few technical 
glitches and, as you noted in your testimony, some bad actors have been 
caught by the new system. That is all to the good--as we want to know 
who is entering and existing our country. Indeed, Congress first 
started calling for an ``entry-exit'' system back in 1996.
    But there seems to be a disconnect. There seems to be a bit of 
over-selling of this program by the Secretary and the Department and 
the Administration. It is true that we are capturing information and 
checking fingerprints and photos with visa holders who are entering our 
country at 115 airports and 14 seaports--but do not pop the champagne 
just yet. At how many airports are we currently capturing information 
to verify who is exiting the country? One. At only one airport out of 
115 are we learning who is exiting our country. The same holds true of 
exit information at our seaports--one out of 14.
    Secretary Hutchinson, this troubles me. I am troubled that an 
extremely important security program--and one that I support--is being 
inaccurately represented. It is being presented as more than it truly 
is. And I am concerned that if the Secretary and the Department can 
make the claim that they met the deadline to get this program started--
when only half of the job is done for this first phase, how can we and 
the American people know that the next deadline is truly met? And, if 
you cannot meet your own self-imposed deadline for a relatively-easy 
system in a controlled environment (people waiting to board a plane), 
how can we be certain that you will meet your next deadline which we 
understand is verifying the entry and exit of visa holders at our 50 
largest land border ports-of-entry?
    Answer. As stated in the record, the first Congressional mandate 
for an electronic entry and exit system was in 1996. In 2000, the 
Immigration and Naturalization Data Management Improvement Act (DMIA) 
fully amended and replaced section 110 of the Illegal Immigration 
Reform and Immigrant Responsibility Act of 1996. Under the provisions 
of the DMIA, the Administration is required to integrate all authorized 
or required alien arrival and departure data that are in electronic 
format in existing systems maintained (at that time) by the Department 
of Justice and the Department of State. The DMIA also set forth 
timelines for this integration and deployment effort.
    On January 5, 2004, the deployment of the newly integrated systems 
containing alien entry and departure data was successfully launched to 
all of our Nation's international airports of entry, as well as to 14 
of the Nation's largest sea ports at which international travelers 
arrive. Although, not required by statute, the Secretary sought to 
improve on the mandate and requested that all non-immigrants with non-
immigrant visas entering at these locations should also have their 
fingerprints scanned so that checks of additional databases containing 
information on aliens could also be made. We are also piloting the 
capture of biometric data at the point of departure. The collection of 
data from the pilot sites is expected to continue until early in fiscal 
year 2005, with plans to initiate exit installation in fiscal year 2005 
based upon the solutions identified.
    Building upon these successes, US VISIT functionality will be 
deployed to the top 50 land border ports of entry in accordance with 
the timelines set forth in DMIA. US VISIT will work with the to-be-
awarded prime contractor to develop the processes, infrastructure and 
technology required to capture similar data upon entry and exit at the 
land borders in a way that will minimize any deleterious effect on the 
flow of goods and peoples across our borders.

                    TERRORIST WATCHLIST INTEGRATION

    Question. One of the most important items on the Department's list 
of unfinished business is the integration of terrorist watchlists. 
Earlier this year, Secretary Ridge said the list would be fully 
functional ``by mid-May.'' Because many of the agencies you oversee--
such as the Transportation Security Administration, Customs and Border 
Protection, and Immigration and Customs Enforcement--rely daily on 
accurate information about the potential threats to this country posed 
by individuals on these lists, I would imagine that the integration of 
this information would be a priority.
    What is the status of the watch list integration and what are you 
doing to ensure that rapid progress is being made on this important 
national security project?
    Answer. Integration of terrorist watchlists is proceeding. The 
Terrorist Screening Center (TSC) has been established with its own 
consolidated database comprising information from the Terrorist Threat 
Integration Center (TTIC). TTIC is collecting information from all the 
agencies holding watchlists to verify the information and add names and 
data to TSC's list.

                        INTEROPERABILITY GRANTS

    Question. According to ``A Needs Assessment of the U.S. Fire 
Service'', a report conducted by FEMA in conjunction with the National 
Fire Protection Administration, only one-fourth of all fire departments 
can communicate with all of their rescue partners. The Council on 
Foreign Relations' June, 2003 study on Homeland Security Needs 
estimated that the need for interoperable communications equipment 
funding was $6.8 billion over the next 5 years. The February 2003 
National Task Force on Interoperability report entitled ``Why Can't We 
Talk'' found that ``in many jurisdictions radio communications 
infrastructure and equipment can be 20-40 years old. Different 
jurisdictions use different equipment and different radio frequencies 
that cannot communicate with each other. There are limited uniform 
standards for technology and equipment.''
    Last year, the Administration proposed and Congress agreed to drop 
homeland security funding specifically for interoperability grants. 
Once again, the President has proposed no specific funding for 
interoperable grants and the $85 million Department of Justice program 
for law enforcement interoperable grants is proposed for elimination. 
The Secretary recently announced a very modest interim solution to the 
interoperable problem. Yet, the Administration assumes that State and 
local governments will use their first responder grants for this 
purpose and requests no specific funding for the estimated $50 million 
cost for the interim solution.
    The President is proposing to reduce first responder grants by over 
$700 million and government-wide by $1.5 billion. With these cuts, why 
do you believe States will be able address both the interoperable 
communication problem as well as the funding shortfall in first 
responder requirements?
    Answer. The President's fiscal year 2005 budget request provides 
significant support for the mission and programs administered by the 
Office for Domestic Preparedness. As you know, The Homeland Security 
Act of 2002 (Public Law 107-296) designated ODP as the principal 
Federal agency responsible for the preparedness of the United States 
for acts of terrorism, including coordinating preparedness efforts at 
the Federal level, and working with all State, local, tribal, parish, 
and private sector emergency response providers on all matters 
pertaining to combating terrorism, including training, exercises, and 
equipment support.
    The President's request includes $3.561 million, which is a $3.3 
million increase from the fiscal year 2004 request. With these 
resources, ODP will be able to maintain its role in enhancing the 
security of our Nation. The two primary means through which ODP 
provides funds to States and the Nation's emergency prevention and 
response community are the Homeland Security Grant Program (HSGP) and 
the Urban Areas Security Initiative (UASI). The President's fiscal year 
2005 budget request includes $750 million for HSGP and more than $1.4 
billion for UASI. With these funds, states, urban areas, and other 
units of local government can undertake a wide range of domestic 
preparedness activities, including the purchase of specialized 
equipment. Interoperable communications equipment is an allowable 
expense and falls within the HSGP and USAI funding requirements. In 
fact, to facilitate communications interoperability, ODP strongly 
encourages all new or upgraded radio systems and new radio equipment 
purchased with these funds be compatible with a suite of standards 
called ANSI/TIA/EIAA-102 Phase 1 (Project 25). These standards have 
been developed to allow for backward compatibility with existing 
digital and analog systems and provide for interoperability in future 
systems.
    Overall, though, I think it is important to remember that we are 
operating in a fiscal and security environment where we must ensure 
maximum security benefits are derived from every security dollar. To do 
that, we must be able to take a new look at the way in which we 
allocate resources. Additionally, given the Department's improved 
ability to analyze risks, threats, and vulnerabilities, the Department 
is better able to provided targeted funds to increase the security of 
the Nation. The Department will continue to work with the States and 
territories to provide the resources they need--equipment acquisition 
funds, training and exercise support, and technical assistance--to 
deter, prevent, respond to, and recover from acts of terrorism.

                     GRANT CONSOLIDATION WITHIN ODP

    Question. On January 26, your Department exercised authority 
granted to you under Sec. 872 of the Homeland Security Act which 
permits the movement and consolidation of functions without 
congressional approval. Your proposal would consolidate the 
administration of 24 grant programs into a single office. During 
briefings for my staff, your aides justified this move as a way to 
address a strong interest by the States in a ``one-stop shopping'' 
center for all grants. I have serious concerns about the decision to 
transfer ALL Transportation Security Administration grant programs from 
TSA to the Office of Domestic Preparedness.
    Many of us in Congress have been concerned that while we passed 
legislation creating the Transportation Security Administration--this 
Administration has treated it as the Aviation Security Administration. 
TSA was created to focus on securing ALL modes of transportation--
buses, and trucking, and seaports--not just aviation. Aviation security 
is a primary concern, of course, but it cannot be the only concern. We 
on this Committee have had to cajole and wheedle and scrape together 
what few precious resources we could find to fund grant programs to 
address port security, and bus security, and trucking security and the 
safe flow of commerce traveling by sea. Now, you are shifting those 
programs to another agency with little expertise in transportation 
issues and proposing to eliminate funding for several of the programs. 
If these TSA grant funds are moved out of TSA's budget and away from 
its operational control, the President might just as well abolish the 
agency. Change the agency's name to the Only Aviation Security 
Administration.
    Why do you want to move these TSA grant funds to the ``one-stop 
shop''? Are you not concerned that TSA will lose its ``all 
transportation'' focus if its grant funds are removed from its budget?
    Answer. The move to create a one stop shop for grants is based upon 
input from the user or grantee community and is designed to enhance 
coordination of the multitude of preparedness and security grants 
currently administered by the Department (ODP, FEMA and TSA). The one-
stop shop consolidation will allow DHS to gain a global perspective on 
all of the grants to ensure that redundancies are minimized, funds are 
directed to the highest best use and DHS can proactively make 
recommendations to States, localities and other recipients on mutual 
aid and dual use opportunities.
    Moving the TSA grants to SLGCP will provide DHS with concrete 
benefits. First, it will allow the substantial bulk of the TSA 
personnel who are not impacted by the consolidation to focus on their 
core mission of transportation security. Next, it creates internal (to 
DHS) and external (to recipients) improved efficiencies because only 
one DHS team (SLGCP) will interact with grant recipients rather than 
two separate teams (one at SLGCP and one at TSA) and, more importantly, 
recipients who apply for more than one type of grant (e.g. a UASI and a 
TSA grant) will only need to deal with one DHS team (SLGCP).
    Final policy responsibility for grant guidance and grant 
distribution will reside with the Office of State and Local Government 
Coordination & Preparedness. However, overall hazards and 
transportation security policy input will remain with FEMA, TSA, as 
well as the Coast Guard, and MARAD. And, to ensure the continuing 
involvement of TSA in the grant process, ODP will create a distinct 
office dedicated specifically to transportation related grants. This 
office will work closely with TSA in developing transportation security 
grant policy.

                          STATE FORMULA GRANTS

    Question. Mr. Secretary, State formula grants have been the largest 
source of homeland security money for State and local governments. In 
fiscal year 2003, Congress provided $2.1 billion for State formula 
grants, and in fiscal year 2004 provided nearly $2.2 billion for this 
purpose.
    Your 2005 budget request drastically changes the scope of State 
formula grants. You request only $1.2 billion for the program, choosing 
instead to invest $1.4 billion into the urban areas security 
initiative, which targets specific cities. Your request also changes 
the way in which State formula grants are distributed. Your budget does 
not distribute funds according to the PATRIOT ACT requirement that all 
States get a portion of funds, but rather according to ``terrorism risk 
factors.'' I am sympathetic to your proposal to shift money from the 
State grant program to grants to high threat urban areas. Most of the 
funds should be targeted to the areas where the risk is highest. 
However, for the funds that remain in the State grant program, I 
believe the PATRIOT ACT formula should be retained. Will you keep the 
small State minimum for State grants as required by the PATRIOT ACT?
    This proposal effectively turns the State homeland security grants 
into an extension of the Urban Areas Security Initiative. I agree that 
it is important to target resources to areas at greatest risk, but it 
is equally important that we ensure that every State has they resources 
needed to build up a basic homeland security infrastructure. This 
budget does not achieve both goals.
    Answer. I strongly support the idea that homeland security is a 
national responsibility shared by all States, regardless of size. That 
is why I firmly believe that there should be a minimum level of 
preparedness across the county and that every State should receive some 
level of assistance from the Department of Homeland Security.
    Further, I strongly support the President's fiscal year 2005 budget 
request that provides for additional factors to be considered when 
making determinations on how to distribute homeland security funds to 
States and localities. While I support the concept behind the PATRIOT 
Act--that every State should receive minimum levels of support--I 
firmly believe that funding allocations decisions should be based on a 
number of other factors not included in the PATRIOT Act formula, 
including the presence of critical infrastructure and other significant 
risk factors. With the input that the Department is receiving from the 
States through their updated homeland security strategies, and with the 
more robust intelligence analysis and data collection capabilities 
within the Department, the Department will be better able to prioritize 
support for your efforts to prevent, prepare for, and respond to 
terrorist incidents. The President's fiscal year 2005 request 
recognizes this enhanced ability, and provides the Secretary of 
Homeland Security the latitude and discretion to determine appropriate 
funding levels to the States.

                           GRANT APPLICATIONS

    Question. Please provide the Subcommittee with a list of the number 
of applications (and the total amount requested) for port security, bus 
security, truck security, Operation Safe Commerce, hazmat security and 
fire grants per grant-making round and the amounts awarded on State by 
State basis.
    Answer. The following table provides the number of applications 
received and the total amount requested for port security, bus 
security, truck security and Operation Safe Commerce per grant round:

------------------------------------------------------------------------
                                             Number of
                                           Applications/   Total Amount
              Grant Program                  Proposals       Requested
                                             Received
------------------------------------------------------------------------
Port Security Round 1...................             856    $696,957,362
Port Security Round 2...................           1,112     995,905,305
Port Security Round 3...................           1,042     987,282,230
Intercity Bus Security..................              84      45,611,455
Truck Security..........................              16      70,984,782
Operation Safe Commerce.................              33      97,966,809
------------------------------------------------------------------------

    The following table provides the dollar amount of grants awarded by 
State:


--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                          ODP Port                      Truck Security--
              State Name                Port Security   Port Security   Port Security     Security      Intercity Bus    Highway Watch    Operation Safe
                                        Round 1 Total   Round 2 Total   Round 3 Total   Grants Total   Security Total        Total        Commerce Total
--------------------------------------------------------------------------------------------------------------------------------------------------------
ALABAMA..............................              $0        $948,000      $1,098,571              $0              $0                $0               $0
ALASKA...............................       1,344,929       4,086,255         758,569         250,000               0                 0                0
AMERICAN SAMOA.......................               0               0               0               0               0                 0                0
ARIZONA..............................               0               0               0               0          99,950                 0                0
ARKANSAS.............................               0               0               0               0               0                 0                0
CALIFORNIA...........................      17,152,573      28,017,757      33,704,614       9,076,700         177,116                 0       13,697,053
COLORADO.............................               0               0               0               0               0                 0                0
CONNECTICUT..........................         296,636       2,201,337       3,825,565               0               0                 0                0
DELAWARE/PENNSYLVANIA................       1,925,000       5,512,369       1,830,700       3,730,555         342,765                 0                0
DISTRICT OF COLUMBIA.................               0          27,356               0               0         773,614                 0                0
FED. STATES OF MICRONESIA............               0               0               0               0               0                 0                0
FLORIDA..............................      19,572,606      17,654,425       7,625,747      10,947,378         141,580                 0                0
GEORGIA..............................       2,305,400       2,629,643       4,237,611               0         265,003                 0                0
GUAM.................................               0               0         518,900               0               0                 0                0
HAWAII...............................         802,523       7,005,561       4,247,966               0               0                 0                0
IDAHO................................               0               0               0               0               0                 0                0
ILLINOIS.............................               0         872,250       7,025,300               0          51,278                 0                0
INDIANA..............................               0          68,800         353,760               0         113,813                 0                0
IOWA.................................               0               0          51,600               0         226,272                 0                0
KANSAS...............................               0               0         221,540               0               0                 0                0
KENTUCKY.............................               0          55,136       1,439,578               0               0                 0                0
LOUISIANA............................       4,968,207      19,991,897      23,552,896       6,650,200               0                 0                0
MAINE................................         175,000       2,054,000         621,200               0               0                 0                0
MARSHALL ISLANDS.....................               0               0               0               0               0                 0                0
MARYLAND.............................       3,764,000       4,518,532       5,586,150               0         338,482                 0                0
MASSACHUSETTS........................       3,789,669       4,333,651       3,005,829               0       1,173,875                 0                0
MICHIGAN.............................         135,000         409,000         897,263               0               0                 0                0
MINNESOTA............................               0               0         813,100               0         335,102                 0                0
MISSISSIPPI..........................         555,132         705,444       2,245,740               0               0                 0                0
MISSOURI.............................               0         125,000          50,000               0               0                 0                0
MONTANA..............................               0               0               0               0               0                 0                0
NEBRASKA.............................               0               0               0               0               0                 0                0
NEVADA...............................               0               0               0               0         320,791                 0                0
NEW HAMPSHIRE........................         200,000          80,000       1,570,203               0          73,182                 0                0
NEW JERSEY...........................               0       5,493,067       5,129,950       7,613,106       2,454,220                 0                0
NEW MEXICO...........................               0               0               0               0               0                 0                0
NEW YORK.............................       8,013,360       9,847,792       6,699,713       4,477,768         172,130                 0       13,818,770
NORTH CAROLINA.......................         250,000       4,870,000       3,224,114               0         566,591                 0                0
NORTH DAKOTA.........................               0               0               0               0               0                 0                0
NORTHERN MARIANA ISLANDS.............               0               0       1,379,577               0               0                 0                0
OHIO.................................         550,622         777,000       3,100,127               0          44,408                 0                0
OKLAHOMA.............................               0         725,000               0               0               0                 0                0
OREGON...............................         623,000       1,185,000       1,024,970               0           9,900                 0                0
PALAU................................               0               0               0               0               0                 0                0
PUERTO RICO..........................       3,000,000         637,000       3,585,870          23,490               0                 0                0
RHODE ISLAND.........................         261,500         435,000       1,498,563               0               0                 0                0
SOUTH CAROLINA.......................       1,819,072       1,845,389       5,225,019       5,124,554          35,263                 0                0
SOUTH DAKOTA.........................               0               0               0               0               0                 0                0
TENNESSEE............................         198,052         639,655         768,285               0         123,375                 0                0
TEXAS................................       8,345,366      18,814,061      31,960,813      12,158,057      10,755,138                 0                0
UTAH.................................               0               0               0               0               0                 0                0
VERMONT..............................               0               0               0               0         217,542                 0                0
VIRGIN ISLANDS.......................               0       1,873,245         869,275       1,582,468               0                 0                0
VIRGINIA.............................       6,044,618       5,068,358       1,681,280       6,600,000         841,330        19,300,000                0
WASHINGTON...........................       5,179,974      14,895,156       7,030,942       6,765,724          26,407                 0       27,528,219
WEST VIRGINIA........................         750,000         522,000         565,000               0               0                 0                0
WISCONSIN............................               0               0               0               0         120,873                 0                0
WYOMING..............................               0               0               0               0               0                 0                0
                                      ------------------------------------------------------------------------------------------------------------------
      GRAND TOTALS...................      92,022,239     168,924,136     179,025,900      75,000,000      19,800,000        19,300,000       55,044,042
--------------------------------------------------------------------------------------------------------------------------------------------------------

                        AIR CARGO: PILOT PROGRAM

    Question. I understand that the bulk of air cargo carried on 
narrow-body aircraft is broken down--as opposed to being containerized 
in larger containers. What percentage of U.S. flights carrying air 
cargo are made on narrow-body aircraft? Has TSA started physically 
screening these broken-down forms of air cargo using explosive 
detection devices--even if only in a pilot program as strongly urged by 
the Congress in the fiscal year 2004 Homeland Security Act? If not, why 
not? When do you intend to initiate such a program--given that the bill 
was signed into law on October 1, 2003--over 5 months ago?
    Answer. TSA does not compile statistics regarding the percentage of 
U.S. flights carrying air cargo utilizing narrow-body aircraft. Last 
November, TSA instituted mandatory cargo screening requirements for air 
carriers. The screening requirements apply to cargo transported on both 
wide body and narrow body aircraft--including ``break bulk'' shipments 
transported on narrow body aircraft. TSA is finalizing a protocol, 
which will allow the air carriers to utilize Explosive Trace Detection 
equipment to screen cargo. TSA is also currently conducting a pilot 
program of Explosive Detection Systems ability to screen cargo for 
explosives. As TSA's cargo screening requirements continue to evolve 
TSA will continue to test and analyze the feasibility of using 
additional explosive detection capabilities for cargo.

                        FLETC BUDGET: CHARLESTON

    Question. For many years, the FLETC has used facilities at the 
former Navy base in Charleston, SC as a satellite training location for 
training law enforcement personnel from the Border Patrol and other 
agencies because it was unable to accommodate them at its two main 
training facilities. Last year, prior to the creation of the Department 
of Homeland Security and the consolidation and reorganization of 
numerous agencies, Congress appropriated and the President signed into 
law approximately $14 million for the Border Patrol Academy at 
Charleston. I understand that FLETC proposes to move all Border Patrol 
training to its main facility at Glynco, GA and use the Charleston 
location for training for other agencies. However, that move is not 
likely to occur for nearly 2 more years. There is considerable 
confusion over the use of the funds provided by Congress for 
construction activities at Charleston. It is clear that the Congress 
intended for these funds to be used in Charleston. Will you commit that 
these funds will be spent in Charleston as directed by Congress and 
provide the Subcommittee with a plan for allocating those funds?
    Answer. The FLETC will use the funds in the amount of 
$13,896,000.00 for projects in Charleston. The Core of Engineers spent 
approximately $104,000 for design prior to the administrative transfer 
of Charleston to the FLETC. A summary of the projects are:
  --Construction of Tactical Training Mat Rooms for defensive tactics 
        training for the USCG Marine Law Enforcement Academy;
  --Renovation of new wing in Building 654 for administrative space for 
        the USCG Marine Law Enforcement Academy;
  --Renovation of four classrooms in building 61 for classroom space 
        for the USCG Marine Law Enforcement Academy;
  --Renovation of old wing in Building 654 for administrative, 
        conferencing and training space for the FLETC and Partner 
        Organizations' training management and operations staffs;
  --Construction of Indoor Firing Range to provide training and re-
        qualifying students in firearms proficiency; and
  --Construction of Security/Communications system that will allow the 
        FLETC Charleston to provide efficient and cost effective 
        training while utilizing the latest state of the art 
        technologies.

                FLETC BUDGET: FACILITIES OPERATING FUNDS

    Question. I am a strong supporter of consolidated Federal law 
enforcement training--in part because of the budgetary savings which 
can be achieved. During site visits by my staff to the FLETC facilities 
in SC and GA, they were told that the Border Patrol's training budget 
for activities at Charleston was $34 million in fiscal year 2004 and is 
proposed to be $42 million in fiscal year 2005. Is that correct? If so, 
where will these funds come from? Are the agencies going to transfer 
funds to FLETC or will FLETC bill them for training? Without clear 
indications of funding streams to pay for the operation of the facility 
in Charleston being placed in the FLETC budget--or in the budgets of 
the agencies attendant at these facilities--how can you ensure that 
consolidated training will work efficiently and that these facilities 
will operate robustly and effectively?
    Answer. The Border Patrol has been providing the funding to operate 
the Charleston facility since the late nineties. The amounts provided 
by the Border Patrol included resources for TDY of agents that are not 
applicable to the operations of Charleston by the FLETC. The final 
amount has not been determined but the current estimate is 
approximately $21 million to operate Charleston. In addition, 25 FTE 
will be necessary to operate the facility and the source of those FTEs 
are being determined. A transfer of funds from the Border Patrol to the 
FLETC will be necessary to align responsibilities with Federal 
appropriations. The FLETC is currently evaluating the resources 
required for the additional basic training programs to be conducted in 
Charleston for three new Partner Organizations. These new agencies are 
United States Coast Guard Marine Law Enforcement Academy, The 
Administrative Office of the U.S. Courts and the Defense Logistics 
Agency. The FLETC will not be able to operate the Charleston training 
site without these resources.

                  FLETC: CAPITOL POLICE TRAINING COSTS

    Question. What are the costs FLETC has borne for non-basic training 
conducted at the Cheltenham facility for the United States Capitol 
Police for fiscal years 2002-2004 and what are the anticipated costs 
for the same training for fiscal year 2005? What are the annual basic 
training costs?
    Answer. The Capitol Police have historically provided some follow-
on basic training for their officers at locations in the Washington DC 
area. This training was not done at a FLETC location, was never paid 
for by the FLETC, and therefore is not in the FLETC's base funding. 
This is consistent with other Partner Organizations such as the United 
States Secret Service which provides its follow-on basic training at 
their Beltsville location. Now that the Capitol Police is conducting 
agency specific basic training at a FLETC location, namely Cheltenham, 
for consistency purposes, this funding could be included as part of 
FLETC's annual workload projections. The precise amount of funding 
would need to be negotiated with the U.S. Capitol Police.

                     U.S. CAPITOL POLICE OPERATIONAL EXPENSES AT FLETC'S CHELTENHAM FACILITY
----------------------------------------------------------------------------------------------------------------
                                                                    Building 3      Building 31    Buildings 31,
                             Service                                Fiscal year     Fiscal year   231, 40 Fiscal
                                                                       2003            2003          year 2004
----------------------------------------------------------------------------------------------------------------
Electricity.....................................................          $5,554         $49,365         $52,364
Fuel Oil........................................................           5,361          21,259          25,516
Security........................................................           1,908          16,960          17,990
Telephone Service...............................................          10,106  ..............  ..............
Telephone Service...............................................  ..............          11,731  ..............
Telephone Service...............................................  ..............  ..............          10,169
Telephone Lease.................................................  ..............          84,844          84,844
Refuse Disposal.................................................             600             900             900
Water/Sewer.....................................................           1,636          14,537          15,420
General Janitorial..............................................           7,326          65,113          69,069
Additional Trash Pulls (Daily)..................................  ..............           5,172           5,172
                                                                 -----------------------------------------------
      Total.....................................................          32,491         269,880    \1\ 281,445
----------------------------------------------------------------------------------------------------------------
\1\ Estimate.

                          FLETC: OTHER ISSUES

    Question. Approximately 60 percent of the FLETC workforce is 
comprised of contract employees. From perimeter security guards and 
role players used in training scenarios to food service workers and the 
maid service, these employees word hard and perform much needed 
services. Given the exceedingly high percentage of contract employees, 
does the Department expect FLETC to conduct further efforts to contract 
out yet even more work?
    Answer. The FLETC has developed a plan for competitive sourcing to 
be in compliance with the A-76 circular. At this time, the positions 
planned for study include 13 Automotive Mechanics in fiscal year 2005; 
21 Media Support positions and 30 Facilities Management positions in 
fiscal year 2006; 4 Critical Incident Stress Management positions and 9 
Property Management positions in fiscal year 2007; and 20 Human 
Resources positions and 36 IT/Training Devices/AV positions in fiscal 
year 2008.
    Question. The horrific events of 9/11 resulted in a massive 
increase in hiring of Federal law enforcement personnel. These new 
hires required training and Congress provided temporary authority to 
re-hire retired Federal annuitants to assist in training activities. I 
am told that these annuitants are providing FLETC and the Department 
excellent and valuable service based on their years of skill and real 
life experience. However, this authority will soon expire and I 
understand that a significant portion of FLETC's training would be 
negatively affected if it lost this authority. Do you plan to request 
that Congress extend this authority either permanently or for another 5 
years?
    Answer. The FLETC intends to recommend to the Administration an 
extension to its rehired annuitant hiring authorization and waiver to 
dual compensation. Historically, it has been very challenging for FLETC 
to recruit highly qualified law enforcement instructors with a Federal 
criminal investigative, GS-1811, background because the FLETC has no 
authority to pay law enforcement availability (LEAP) compensation. Any 
current Federal criminal investigator interested in an instructor 
position at the FLETC must be willing to take a 25 percent cut in his/
her annual salary when accepting a FLETC position. In addition, 
retaining their law enforcement ``6c'' retirement status sometimes 
becomes an issue, and they also lose their privileges to use government 
vehicles for response necessities.
    Prior to the tragic events of 9/11, the FLETC had been working 
vigorously with its former department, Department of the Treasury, and 
Office of Personnel Management officials to gain approval to implement 
the rehired annuitant hiring flexibilities contained within the Federal 
personnel management system. As mentioned above, the FLETC had been 
seeking this approval in order to overcome the recruitment and 
retention challenges associated with staffing Law Enforcement 
Specialist (Instructor), GS-1801, positions with applicants possessing 
extensive Federal criminal investigative backgrounds. Furthermore, the 
FLETC intended to maximize the provisions of the program by recruiting 
recent 1811 retirees who could share the latest law enforcement 
techniques and practices being utilized in the field.
    The need for the majority of FLETC instructors to possess a 
criminal investigative background has been and continues to be 
validated through management studies and student feedback surveys. 
Instructors having this background gain instant credibility with their 
students because they are able to share real world experiences and 
demonstrate the application of skills and information being taught. In 
addition, the FLETC's mission has continued to expand post 9/11 into 
areas such as counterterrorism, antiterrorism and transportation 
security training which require attracting even more specialized 
expertise in a highly competitive market. Therefore, it is essential 
that the FLETC continue to take advantage of this proven hiring 
flexibility in its efforts to maintain a highly qualified law 
enforcement training instructor workforce. Reverting back to 
traditional instructor recruiting and staffing practices would 
adversely impact and unduly hamper this effort.

                TSA: SLOW MOVEMENT OF APPROPRIATED FUNDS

    Question. In the fiscal year 2004 Homeland Security Appropriations 
Act, Congress provided $7 million for hazardous materials security and 
the truck tracking program, $10 million for intercity bus security 
grants, and $22 million for the trucking industry security program. 
That bill was signed into law in October. Nearly 6 months later those 
funds have not yet been released. Since security for these other modes 
of transportation are so important, why has TSA been sitting on these 
funds?
    Answer. In the coming months, TSA plans to request proposals for 
funding or announce awards for a number of programs. These include:
  --TSA anticipates issuing a Request for Applications (RFA) for both 
        the fourth round of Port Security Grants Program ($50 million 
        remaining from fiscal year 2004) and Intercity Bus Security 
        grants by late spring, 2004, with final awarding of grants 
        expected in late summer.
  --A fourth quarter fiscal year 2004 release of the RFA is anticipated 
        for both the Highway Watch Program and Operation Safe Commerce, 
        with final award anticipated in the fall.
  --TSA intends to announce Request for Proposals for the Truck 
        Tracking Project in early summer. Final award is anticipated in 
        early fall, 2004.
  --Award for Nuclear Detection and Monitoring is anticipated by mid-
        summer, 2004.

                             PORT SECURITY

    Question.The deputy assistant director of the FBI's 
counterterrorism office stated in January that our Nation's seaports 
remain vulnerable targets for attack. ``The intelligence we have 
certainly points to ports as a key vulnerability. I can't be more 
specific about the threats of attacks. We have received information 
that indicates there is an interest.''
    If there is an ``interest'' in attacking our ports, why does the 
Administration continue to refuse to give our seaports the resources 
they require to secure our ports? Why is only $46 million requested for 
port security grants when the port directors tell us that $1.125 
billion will be needed in the first year and $5.4 billion will be 
needed over the next 10 years to comply with the new Federal 
regulations mandated by the Maritime Transportation Security Act.
    Additionally, during the most recent port security grant 
competition (December 2003), over half of the funding for port security 
grants was awarded to private companies. A tremendous need for port 
security funding also exists for port authorities and State and local 
agencies. What approach are you taking to allocate the funding between 
these different entities? Additionally, what type of checks and 
balances do you have in place to ensure that private companies are not 
receiving a disproportionate share of this port security funding?
    Answer. In Port Security Grants Round 3, consistent with provisions 
of the Maritime Transportation Security Act of 2002, the Transportation 
Security Administration, U. S. Coast Guard and the Maritime 
Administration determined that regulated facilities should receive 
preference. The vast majority of regulated facilities are private 
companies. However, public entities were well represented with awards 
totaling 45.3 percent of the available funds.
    In general, port security grant funds are dispersed through a 
competitive grant process. The multi-level, interagency review ensures 
that these funds go to the highest national security needs.
  --Eligible grant applicants are limited to critical national seaports 
        as stipulated in the fiscal year 2002 DOD Supplemental 
        Appropriations (Public Law 107-117) and referred to in 
        subsequent appropriations. This designation included:
    --Controlled ports--Ports which have access controls for vessels 
            from certain countries due to national security issues
    --Strategic ports, as designated by a Maritime Administration port 
            planning order
    --A nationally important economic port or terminal responsible for 
            a large volume of cargo movement or movement of products 
            that are vital to U.S. economic interests as required for 
            national security
    --Ports, terminals, and U.S. passenger vessels responsible for 
            movement of a high number of passengers
    --Ports or terminals responsible for the movement of hazardous 
            cargo.
  --All grant applicants must have a completed security assessment and 
        tie the vulnerabilities identified in the assessment to the 
        mitigation strategies requested in the application.
  --Subject matter experts from the U.S. Coast Guard (USCG), the 
        Maritime Administration (MARAD), and TSA conduct a multi-level 
        review of all port security grant applications.
    --Field level review is conducted by the USCG Captain of the Port 
            and MARAD Regional Director to validate applicant 
            eligibility and prioritize all proposals within their zone, 
            utilizing the CG Port Security Risk Assessment Tool 
            (PSRAT).
    --National level review is conducted by representatives from the 
            USCG, MARAD, and TSA based upon published evaluation 
            criteria. All eligible proposals from the field level 
            review are prioritized on a national level.
  --Executive level review board of agency representatives examines the 
            recommended proposals from an overarching national 
            perspective.
  --Senior level selection board (currently TSA Administrator or his 
            representative, USCG Commandant or his representative, 
            MARAD Administrator) provides the final approval of the 
            proposed grantees/projects.

                     INTEGRATED FINGERPRINT SYSTEMS

    Question. Mr. Secretary, Senator Cochran and I met last year in the 
Capitol to discuss our concerns about the plans for obtaining only two 
fingerprints of visitors to the United States as a means to fulfill the 
biometric component portion of the entry-exit visa tracking system you 
have named US VISIT. I suggested that I was concerned that capturing 
only two fingerprints might make it more difficult to compare these two 
new prints with more extensive existing fingerprint databases such as 
the FBI's Integrated Automated Fingerprint Identification System 
(IAFIS). In fact your own Department's Inspector General report dated 
December 31, 2003 noted that the Department of Justice has worked for 
several years to integrate your Department's two-print system--known as 
the automated biometric identification system, or IDENT--with the FBI's 
IAFIS system.
    The IG states that, ``This integration is critical to identifying 
illegally entering aliens on lookout lists or with criminal histories, 
but progress has been slow.''
    What is the status of the integration of these systems? Can you 
give the Committee a progress report on the integration of these 
systems?
    Answer. Prior to the establishment of the Department on Homeland 
Security, DOJ, working with the FBI and INS, began work on a project to 
integrate the FBI's IAFIS (10 print, criminal history) and the INS' 
IDENT (2-print, immigration) systems.
    Since that time, an integrated IDENT/IAFIS workstation has been 
developed. DHS intends to accelerate deployment in 2004 and complete 
deployment by the end of calendar year 2005. To accelerate the 
implementation of IDENT/IAFIS capability within the Department, we 
intend to seek a reallocation of $4 million of the remaining funds 
provided in Public Law 107-117. The $4 million, when combined with 
fiscal year 2003 funds already provided ($3.5 million obligated for 
IDENT/IAFIS), will allow BTS VISIT to implement IDENT with 10 print 
capabilities in secondary processing areas at 115 airports, 14 seaports 
and 50 of the largest land border ports. In addition, this funding will 
support implementation of the IAFIS/IDENT 10 print capability at 70 
percent of the Border Patrol stations. The remaining land ports of 
entry, 30 percent of the Border Patrol stations and major ICE locations 
(to be identified) will receive this capability in 2005. The 
implementation of IDENT/IAFIS at Border Patrol stations will provide 
the capability to biometrically identify and/or perform status 
verifications on individuals suspected of illegally crossing the 
border. Implementation at ICE offices will support investigation of 
individuals apprehended for overstays and/or watch list hits.

                              IMMIGRATION

    Question. The Enhanced Border Security and Visa Entry Reform Act 
requires all immigration databases to be made interoperable and, 
eventually, combined into the Chimera data system, which is to include 
all known immigration, law enforcement, and intelligence data on 
aliens. What progress has been made thus far on creating the Chimera 
data system?
    Answer. On the 28th of October 2002, the Immigration and 
Naturalization Service published an informational document regarding a 
comprehensive information technology planning and infrastructure 
modernization program called ``Atlas''. That document was entitled the 
``Atlas Business Case'' and provided a concise high-level view that 
demonstrated the INS' confidence in Atlas' strategic, technical, and 
financial merits. The business case reflected investment principles, 
emulation of industry best practices, and compliance with the Clinger-
Cohen Act of 1996, as well as with other related legislative and 
government guidance.
    Consistent with the urgencies of the Government's post-September 11 
security agenda, the Atlas Business Case was subsequently socialized 
and promoted within the Department of Justice and sent to the Hill for 
budgetary consideration. It was understood that the Atlas Program would 
be the fundamental IT infrastructure foundation on which INS business 
applications would operate. In its business case, the INS illustrated 
that the successful Atlas transformation strategy would hinge upon a 
robust IT infrastructure containing a secure, scalable backbone that 
would support all INS business processes. Atlas, it was shown, would 
also provide database interoperability at the infrastructure level and 
support data sharing at the applications level. From the beginning, the 
Atlas design strategy also supported emerging Department of Homeland 
Security (DHS) requirements. Unlike the previous environment, Atlas was 
proposed to reside within an integrated Enterprise Architecture (EA) 
that would harmonize the following:
  --System hardware, including mainframes and servers
  --Data services, including data and voice circuits
  --Data communication equipment, including servers, switches, local 
        area networks (LAN), wide area networks (WAN), routers, and 
        cabling
  --Computer security, information assurance activities and enterprise 
        information. This, specifically, is the area that would later 
        come to be identified as the focus area for the suggested 
        Chimera project.
  --Workstations, including personal computers and laptops and 
        enterprise-wide software (i.e., office automation, e-mail, 
        operating system, etc.)
  --Operational support to maintain and operate the modernized IT 
        infrastructure
    Perhaps in contemplation of partitioning and re-tasking of the INS 
and its resources, or perhaps in calculating the initial complexity and 
cost of implementing Atlas, a counter-suggestion was made in committee 
and transmitted back to the Department of Justice and the INS that 
certain specific information security and assurance attributes of Atlas 
could be separately expedited and put into action under a new 
initiative tentatively labeled ``Chimera''.
    However, other program initiatives under way at INS and the new 
Department of Homeland Security were also addressing the same security 
concerns. In particular, the ``US VISIT'' program had pursued the same 
set of concerns and an active, high-precision approach for addressing 
critical information security and assurance requirements.
    Because of the US VISIT Program's ongoing and comprehensive 
approach to information security and assurance requirements within the 
DHS sphere of immigration-related operations, Chimera has been 
suspended and is being revisited to determine its potential as a 
duplicative effort.
    Question. As part of the 1990 Immigration Act, Congress authorized 
general arrest authority for all immigration law enforcement officers. 
INS never developed regulations to implement this authority. Has DHS 
developed such regulations?
    Answer. Yes, ICE issued a memo implementing general arrest 
authority for the ICE Office of Investigations and Detention and 
Removal in November 2003.
    Question. Representatives of the Department of Homeland Security 
Council (union of legacy INS employees) reported at a press conference 
on March 3 that no more than 5 percent of Immigration and Customs 
enforcement personnel have received cross-training. When does DHS 
expect to complete cross-training of all existing personnel? What 
percentage of all needed cross-training is funded in the President's 
budget proposal?
    Answer. OI conducted a manual survey the last week of March 2004. 
At that time 830 Special Agents had completed the cross-training. This 
accounts for 19 percent of the OI workforce of 4,463 which is targeted 
for cross-training in this fiscal year. The Automated Class Management 
System is expected to be on-line by the end of April, 2004. At that 
time, training statistics will be more readily available.
    OI has established a target to complete the cross-training for all 
non-supervisory Special Agents GS-05 through GS-13 by the end of fiscal 
year 2004. This cross-training will be accomplished using a train-the-
trainer format with initial training being conducted at the Federal Law 
Enforcement Training Center.
    Cross-training beyond this priority group and into fiscal year 2005 
will be funded out of base appropriations.
    Question. A pay disparity of a full grade exists between 
Immigration Special Agents (GS-12) and Customs Special Agents (GS-13). 
It appears that the new regulations proposed by the Administration 
would hide this disparity within a pay scale, rather than addressing it 
directly. Is this correct and, if so, what impact is this disparity 
having on morale within ICE
    Answer. On April 13, 2004, Mr. Garcia announced that new Criminal 
Investigator (CI) position descriptions had been classified and all ICE 
GS-1811 series employees would be assigned to them by May 2004. The new 
journey-level position, which is established at the GS-13 level, will 
be applied at that time to all qualifying criminal investigators. As a 
result, the approximately 1,200 former Immigration and Naturalization 
Service (INS) personnel affected by this pay gap will be eligible for 
immediate promotion to GS-1811-13 on May 2, 2004.

                              OTHER ISSUES

    Question. Does the fiscal year 2005 budget assume the 
reauthorization of COBRA which is set to expire on March 31, 2005?
    Answer. Public Law 108-121 reauthorized COBRA through March 1, 
2005. The fiscal year 2005 budget assumes that COBRA will be 
reauthorized beyond the March 1st expiration date.
    Question. What is the net increase in discretionary funding 
(excluding supplemental appropriations) for the Department of Homeland 
Security Bureau of Customs and Border Protection Salaries & Expenses 
between fiscal year 2004 and fiscal year 2005? Looking at the fiscal 
year 2005 budget it appears that the increase is just over 4 percent 
barely enough to cover for inflation.
    Answer. There is a $210 million net increase in discretionary 
funding for CBP's Salaries and Expenses between fiscal year 2004 and 
fiscal year 2005. This net increase includes $185 million in program 
increases and $350 in increases for annualizations of prior year pay 
raises and other inflation related costs. These increases are offset by 
a $23.7 million decrease for a DHS-wide savings initiative, termination 
of one-time costs associated with fiscal year 2004 program increases 
and the fiscal year 2004 rescission.
    Question. What is the Department doing to correct the problem of 
the Department not paying legacy Customs Inspectors and new CBP 
officers for their required work on the 60 day of basic training at the 
Federal Law Enforcement Training Center (FLETC)?
    Answer. We do pay employees covered by the Fair Labor Standards Act 
(FLSA) overtime while engaged in training at FLETC for 6-day weeks. The 
Government Employee and Training Act (GETA) prohibits us from paying 
non- FLSA employees under FLSA provision. Our COPRA covered front-line 
personnel are not subject to FLSA. COPRA was specifically designed for 
Customs Officers and is the exclusive pay act for our Customs legacy 
personnel. Our agency position on this matter was recently sustained in 
an arbitration decision.
                                 ______
                                 

            Questions Submitted by Senator Daniel K. Inouye

    Question. Recently, a week-long convention of Asian life insurance 
providers and sales representatives scheduled to convene in Honolulu 
this August was cancelled. The convention was expected to produce more 
than $17 million in visitor spending, $1.41 million in State taxes, and 
rent 6,500 hotel room nights. The cancellation was not due to lack of 
interest by prospective attendees, but instead was due to the problems 
caused by the extended visa issuance process. Your Department has been 
working with the State Department to enhance security and the integrity 
of the visa process. Your budget requests an increase of $10 million to 
support a new visa security unit. How will this unit help to ensure 
that visas are processed quickly to ensure that Hawaii will be able to 
host similar conventions in the future?
    Answer. BTS is working with the State Department to assure that the 
provisions of the law known as Section 428 are implemented. The ICE VSU 
will be deploying Visa Security Officers to selected foreign posts; 
will be working to enhance State Department Consular officer training; 
will be working to improve the Visa Security Advisory Opinion (SAO) 
process; and develop with the State Department the appropriate employee 
performance plan oversight of Consular Officers by DHS. All of these 
efforts will improve the integrity of the visa issuance process and 
assure that visa applicants receive the appropriate level of review.
    The Department of Homeland Security's (DHS) visa security 
operations are located exclusively in Saudi Arabia at this time. Since 
beginning our operations in Saudi Arabia, thousands of visas 
applications have been reviewed by DHS officers. From over 3,500 
applications, approximately 27 have been delayed for reasons of 
security. Most visa applications in Saudi Arabia are acted upon within 
48 hours. This is in compliance with congressional language as to 100 
percent review of visa applications in Saudi Arabia.
    It is anticipated, DHS will dedicate staff to the SAO process, 
which in turn will further aid to expedite requests and ensure timely 
security screening on behalf of our officers in the field.
    Question. The budget justifications for the US VISIT program 
discuss the deployment plan for the full program. In furtherance of 
complete implementation, a Request for Proposals was published last 
November with bids due this January. How many proposals were received? 
In light of the proposals you received, is the budget request 
sufficient for full implementation of the program, including the 
meeting of your statutory deadlines for deployment to the 165 
identified points of entry?
    Answer. We received three bids for the Prime integrator contract.
    With the resources in the fiscal year 2004 appropriation, and 
provided approval of the fiscal year 2005 President's request, US VISIT 
will have the resources necessary to the meet the statutory deadline 
(US VISIT functionality in secondary) for the 50 largest land border 
ports by December 31, 2004 and the 115 remaining land sites by December 
31, 2005.
    Question. The budget request includes an increase of $23 million 
for Immigration and Customs Enforcement. This increase is intended to 
more than double the number of investigators and facilitate the 
implementation of the President's proposal for a temporary worker 
program. According to your testimony, in furtherance of the President's 
proposal, you would establish a traditional worksite enforcement 
program to deter the hiring of unauthorized workers. What efforts are 
currently being undertaken to detect, deter, and punish employers who 
hire undocumented workers?
    Answer. Enforcement efforts targeting companies that break the law 
and hire illegal workers will need to increase in order to ensure the 
integrity of the temporary worker system. The President's Immigration 
proposal provides for an enhanced worksite enforcement program, and the 
$23 million requested for fiscal year 2005 will allow ICE to enhance 
its worksite enforcement efforts and provide credible deterrence to the 
hiring of unauthorized workers. ICE worksite enforcement investigations 
generally involve a review of company employment records to verify the 
immigration status of workers and to determine if the employer has 
committed any violations. ICE agents also conduct extensive outreach 
initiatives to educate employers about their legal responsibilities.
    Additionally, the Basic Pilot Program, an automated system 
administered by USCIS, enables employers to verify the immigration 
status of newly hired workers. It is currently available in six states, 
but is planned for availability to employers in all 50 states by the 
end of this year. This is a voluntary program and is provided at no 
cost to employers. Information on the Basic Pilot Program is available 
to the public on the USCIS website.
    Question. The Visa Waiver Program is a critical element of the 
Hawaii tourism industry as it allows citizens of 27 countries to enter 
for non-immigrant purposes without a visa. However, by October 26, all 
Visa Waiver countries must certify that the new passports they are 
issuing contain biometric identifiers. How many of the 27 countries are 
currently expected to meet this deadline? Would you support extending 
the biometric passport deadline in order to avoid major disruptions in 
travel to the United States from key tourism markets in Europe and 
Asia? What is the Directorate doing to work with the foreign 
governments in the visa waiver program to encourage compliance?
    Answer. Due to a variety of factors, the Departments of Homeland 
Security and State have requested a 2-year extension for the October 
26, 2004 deadline for machine readable, biometric passports. The 
problem is not lack of will or commitment, but challenging scientific 
and technical issues. Due to technical challenges that include the 
durability of chip technology and the feasibility of facial recognition 
technology in an operational environment, few, if any, of the 27 
countries participating in the Visa Waiver Program (VWP) will be able 
to meet the October 26, 2004 deadline. In fact, the standards have not 
yet been set. Therefore, a 2-year extension is being requested to make 
it possible for countries to comply with this mandate.
    The Department of Homeland Security has been working very closely 
with foreign governments to develop the optimum solution that enhances 
security for all without impeding legitimate travel and tourism. All 
citizens traveling under the Visa Waiver Program will be enrolled in US 
VISIT upon entry through an air or sea port after/on September 30, 
2004.
                                 ______
                                 

           Questions Submitted by Senator Ernest F. Hollings

                 SEAPORT SECURITY IMPLEMENTATION COSTS

    Question. Commissioner Bonner announced with much fanfare, that we 
would sign agreements with major foreign ports, under the ``Container 
Security Initiative'', so that we could inspect containers in foreign 
seaports. It is my understanding, that while this sounds quite smart, 
there are a lot of practical problems. For instance, foreign nations 
use their own security equipment for security to protect their own 
ports, and they have not been all that forthcoming in providing their 
security equipment for our use.
    Can you tell me, how many marine containers underwent physical 
inspection, in foreign ports as a result of the ``Container Security 
Initiative''? What does this represent as a portion of the total that 
was physically inspected?
    What is the budget for the implementation of non-intrusive 
inspection equipment at U.S. ports, and how does it compare with the 
budget for the ``Container Security Initiative''?
    Answer. All cargo moving through a CSI port is screened by CBP 
using our multilayered targeting and risk analysis systems. All high-
risk cargo is inspected for weapons of mass destruction before being 
laden on a vessel bound for the United States in a CSI port. Physical 
inspection statistics for containers will be provided by the General 
Accounting Office in the forthcoming review of the CSI program.
    As of April 23, 2004, U.S. Customs and Border Protection has 
deployed approximately $73.9 million worth of large-scale, non-
intrusive inspection systems and radiation portal monitors to U.S. 
seaports. The Container Security Initiative (CSI) was appropriated 
$61.7 million in the President's 04 budget, of which approximately $12 
million has been allocated for non-intrusive inspection equipment for 
the CSI overseas ports.
    Question. The budget for FTE's for full time positions was set at 
220 for the Transportation Security Administration's Maritime and Land 
Division, yet it is my understanding that to date, this Division is 
only operating with 160.
    You have a number of responsibilities, such as conducting criminal 
background investigations, that are languishing. What is taking so long 
in hiring the remaining 60 Full Time Employee positions that, I 
understand are budgeted for the Transportation Security 
Administration's Maritime and Land Division but not yet hired?
    Answer. The Office of Maritime and Land Security (MLS) within the 
Transportation Security Administration currently has 169 full-time 
employees on board. We do not anticipate at this time hiring additional 
FTE.
    With reference to criminal background check responsibility, since 
security threat assessments of certain individuals within the 
transportation system are a critical component of our mission, TSA 
created a Credentialing Program Office (CPO) to consolidate TSA 
background check activity across all modes of transportation. The CPO 
has established processes for conducting background checks, 
adjudicating results and for follow-on coordination with the law 
enforcement and intelligence communities. TSA is already required to 
conduct criminal history records checks on airport security screening 
personnel, individuals with unescorted access to secure areas of 
airports, and other security personnel--pursuant to Section 114(f)(12) 
of the Aviation and Transportation Security Act, Public Law No. 107-71, 
115 Stat. 587 and 49 USC  44936 (a)(1)(A). In addition to the 
extensive background checks that TSA currently undertakes in aviation 
security, TSA has been delegated responsibility for conducting security 
threat assessments on commercial drivers seeking hazardous material 
endorsements for transporting hazardous materials in commerce pursuant 
Section 1012 of the Uniting and Strengthening America by Providing 
Appropriate Tools Required to Intercept and Obstruct Terrorism (USA 
PATRIOT) Act, Public Law 107-56, October 25, 2001, 115 Stat. 272. 
Implementing the Alien Flight Student Program will be consistent with 
work already underway by TSA through the CPO.

                             ARMING PILOTS

    Questions. Last week, Denver news stations were reporting that 
commercial airline pilots that have been armed with semi-automatic 
pistols through the Federal Flight Deck Officer (FFDO) program were 
misplacing or losing weapons at an alarming rate. According to Channel 
9 News, the Transportation Security Administration (TSA) and Airline 
Pilots Security Alliance were the source of information indicating that 
in the last 60 days approximately 300 weapons had been misplaced by 
FFDOs.
    My understanding is that a Southwest Airline Pilot lost his weapon 
while it was being transported in the lockbox system that is designed 
to protect it while traveling, and that most of the guns reported as 
``misplaced'' came under similar circumstances.
    Are the reports of misplaced and lost weapons by FFDOs accurate? Do 
you believe the current procedures for FFDO firearm transport are 
proper? How many FFDOs have actually lost or misplaced their weapons 
since the program began? What steps need to be taken to responsibly 
ensure that armed pilots do not lose or misplace their guns?
    Answer. TSA takes seriously its obligation to ensure that FFDO 
firearms and lockboxes do not fall into the hands of individuals not 
authorized to handle such items. The FFDO program office works closely 
with carriers to ensure that training is provided to crewmembers and 
baggage handlers to ensure proper handling and storage of lockboxes. In 
some instances, lockboxes have been identified as not placed in the 
precise location expected, but with the exception of the one reported 
incident, the lockbox has always been quickly retrieved without 
endangering the traveling public.
    There has only been one incident involving an FFDO firearm that was 
lost and not recovered. TSA takes this incident very seriously and is 
pursuing an investigation. It must be considered in light of the 
thousands of FFDO missions flown every week and the number of incidents 
where weapons are lost or stolen in law enforcement activities.

                             COCKPIT DOORS

    Questions. For 2 years, I was repeatedly told that it was not 
possible to devise an affordable system that would properly allow a 
pilot to leave the flight deck without also potentially allowing a 
terrorist to have access to the cockpit. Now, United Airlines has come 
forward and announced a ``Secondary Barrier Project'' that they have 
committed to install fleet-wide.
    United Airlines has committed to install--fleet-wide--barriers that 
have already been certified to help prevent a potential terrorist 
access to the cockpit. They will be cheap (under $10,000) and quick to 
install (overnight). I believe they will provide a much greater degree 
of security, and apparently it was shown to the TSA with great 
enthusiasm.
    Are you aware of United's effort? Do you believe the installation 
of second doors or barriers improve the security on commercial 
airliners? Has TSA considered requiring all commercial airlines to 
install similar devices? Would their installation allow TSA to change 
other security directives and perhaps lower the cost of aviation 
security?
    Answer. TSA is aware of and applauds United's initiative in this 
effort. TSA will work closely with the air carriers to better 
understand the security effectiveness, structural feasibility, and 
costs associated with installing similar devices throughout the 
commercial aviation fleet. Once a thorough examination in these areas 
has been completed, TSA will assess the appropriateness of requiring 
installation of secondary cockpit doors relative to existing security 
measures and determine what, if any, alterations should be made to the 
overall aviation security program.

                             RAIL SECURITY

    Question. Border and Transportation Security Directorate is charged 
with, ``securing our Nation's transportation systems.'' How much 
funding is planned in your Directorate's fiscal year 2005 budget for 
rail security?
    Answer. The responsibility of securing our Nation's rail and mass 
transit systems is a shared one. DHS, DOT, and other Federal agencies 
are working together to enhance rail and transit security in 
partnership with the public and private entities that own and operate 
the Nation's rail and transit systems. The DHS Urban Area Security 
Grant program has awarded or allocated over $115 million to improve 
security for mass transit and rail systems since May 2003. 
Additionally, the Administration has requested $24 million for TSA to 
advance security efforts in the maritime and surface transportation 
arenas, and has requested that $37 million of the Federal Transit 
Administrations Urban Security Bus grants be available for security 
related projects. In addition, DHS will conduct the following 
activities and initiatives to strengthen security in surface modes:
  --Implement a pilot program to test the new technologies and 
        screening concepts to evaluate the feasibility of screening 
        luggage and carry-on bags for explosives at rail stations and 
        aboard trains;
  --Develop and implement a mass transit vulnerability self-assessment 
        tool;
  --Continue the distribution of public security awareness material 
        (i.e., tip cards, pamphlets, and posters) for motorcoach, 
        school bus, passenger rail, and commuter rail employees;
  --Increase passenger, rail employee, and local law enforcement 
        awareness through public awareness campaigns and security 
        personnel training;
  --Ensure compliance with safety and security standards for commuter 
        and rail lines and better help identify gaps in the security 
        system in coordination with DOT, with additional technical 
        assistance and training provided by TSA;
  --Continue to work with industry and State and local authorities to 
        establish baseline security measures based on current industry 
        best practices and with modal administrations within the DOT as 
        well as governmental and industry stakeholders, to establish 
        best practices, develop security plans, assess security 
        vulnerabilities, and identify needed security enhancements; and
  --Study hazardous materials (HAZMAT) security threats and identify 
        best practices for transport of HAZMAT.

                FEDERAL LAW ENFORCEMENT TRAINING CENTER

    Question. The Federal Law Enforcement Training Center (FLETC) 
established a temporary overflow training facility for basic training 
of Border Patrol recruits in 1996 at the old Navy Base. Border Patrol 
training needs drastically increased due to legislation passed by 
Congress to significantly increase the number of agents deployed.
    The facility was due to close in 2004, however Congress included a 
provision in the fiscal year 2003 Commerce, Justice and State 
Appropriations Bill which officially designated Charleston as a 
permanent Federal training center absolving the end date of the 
Charleston site as a temporary facility. Congress also secured $14 
million in the fiscal year 2003 Commerce, Justice and State 
Appropriations Bill for the Charleston Border Patrol Academy to improve 
the infrastructure for the training center.
    Since the Federal Law Enforcement Training Center (FLETC) has taken 
administrative control of the site in Charleston, how much of the $14 
million has being transferred from Customs and Border Protection to 
FLETC for use in Charleston?
    Answer. A Reimbursable Agreement (RA) between the FLETC and 
Immigration and Custom Enforcement (ICE) has been prepared in the 
amount of $13,896,000. The FLETC has signed the agreement with a 
statement of work attached and forwarded to ICE for approval. The Core 
of Engineers spent approximately $104,000 for design prior to the 
administrative transfer of Charleston to the FLETC. A summary of the 
Charleston projects are:
  --Construction of Tactical Training Mat Rooms for defensive tactics 
        training;
  --Renovation of new wing in Building 654 for administrative space for 
        the USCG Marine Law Enforcement Academy;
  --Renovation of four classrooms in building 61 for classroom space 
        for the USCG Marine Law Enforcement Academy;
  --Renovation of old wing in Building 654 for administrative, 
        conferencing and training space for the FLETC and Partner 
        Organizations' training management and operations staffs;
  --Construction of Indoor Firing Range to provide training and re-
        qualifying students in firearms proficiency; and
  --Construction of Security/Communications system that will allow 
        FLETC Charleston to provide efficient and cost effective 
        training while utilizing the latest state of the art 
        technologies.
                                 ______
                                 

            Questions Submitted by Senator Patrick J. Leahy

                                  TSA

    Question. I am very concerned about numerous reports of 
mismanagement I have heard with TSA Human Resources and its 
contractors, currently Accenture. I am aware of one Burlington, 
Vermont, Screener Manager and as many as 80 Screener Managers at Dulles 
who were promoted to their positions on February 9, 2003, yet they have 
still not received the full back pay for their promotions.
    I have been waiting since November 6, 2003, for a written 
explanation as to why the Burlington, Vermont, employee has not 
received any back pay. Apparently, the Office of Chief Counsel is still 
reviewing the matter.
    The best explanation I have heard so far--just informal, nothing in 
writing--was that the airports were not authorized to make all of the 
promotions on February 9, 2003, but went ahead and made them anyway. At 
best, this sounds to me like a big communications problem between TSA, 
its HR contractor, and the airports. At worst, this sounds like the 
employees were misled. Unfortunately, it is the people who have been 
performing the work who are getting the raw end of the deal.
    Could you please update me on this situation and explain what is 
being done to remedy the back pay issue?
    Answer. A reply to your letter regarding the constituent in 
Burlington was sent to you in March 2004. A copy of the letter, dated 
March 19, 2004, was faxed to your office on April 21, 2004. To 
summarize what TSA stated in the letter, we could not backdate your 
constituent's promotion because TSA policy stipulates that promotions 
do not become effective until they receive final approval by the 
necessary TSA officials. This policy is based in part on a U.S. 
Comptroller General precedent.
    Taking care of our employees is a very high priority for TSA. It is 
very important to TSA that its employees receive the compensation for 
the jobs that they are performing and that those who were promoted to 
the Lead and Supervisory Screener positions were promoted 
appropriately. At Dulles, all appropriate promotions were made, and all 
one-time awards were paid. TSA believes that all of these issues at 
Dulles have now been fully resolved.
    The issues involving lead and supervisory positions at Dulles 
resulted when screeners were offered promotions inappropriately. At the 
time this situation occurred, TSA was transitioning from its initial 
human resources service contractor to the current contractors and was 
building a fully functioning human resources organization, including 
program management of the contractors. Dulles posted job announcements 
internally for the positions of Lead Screeners and Supervisory 
Screeners with a closing date of December 20, 2002. Unfortunately, at 
that time, the FSD organization at airports did not have delegated 
authority to conduct recruitment and assessment processes, which 
includes the authority to promote existing employees at the airport.
    TSA's Office of Human Resources did not become aware of the issue 
until May, 2003. TSA worked expeditiously to develop a solution whereby 
all individuals who were inappropriately promoted at Dulles were 
provided compensation with a one-time monetary award, consisting of the 
difference between their screener salary and the salary that they would 
have received for the period they were ``promoted.'' Additionally, TSA 
``re-announced'' the supervisory screener positions, and screeners who 
were inappropriately promoted were afforded full and fair opportunity 
to compete for the positions. TSA provided affected screeners the one-
time award regardless of whether they succeeded or not in being 
promoted under the valid procedure.

                                 HAITI

    Question. I am concerned by the Department's response to those who 
have fled Haiti in recent weeks. Haitians intercepted at sea have 
received entirely inadequate screening for asylum. For example, while 
all interdicted Cubans are individually interviewed regarding their 
fear of persecution, only those Haitians who loudly protest their 
return--the so-called ``shout test''--receive such an interview. I 
joined with Senators Kennedy and Durbin in writing to the President 
last week to protest and seek changes in this and other policies. (A) 
Will you provide individual interviews to all Haitians interdicted at 
sea? (B) Will you suspend deportations against Haitians currently in 
the United States until the political situation in Haiti improves?
    Answer. Haitians manifesting a fear of return are and will continue 
to be interviewed by a USCIS Asylum Pre-Screening Officer (APSO). In 
accordance with Department of State direction, DHS will continue to 
conduct non-criminal Haitian removals.

                          DATABASE INTEGRATION

    Question. The Washington Post yesterday editorialized about a 
report Inspector General Fine issued last week on the slow pace of the 
integration of IDENT and IAFIS, the fingerprint identification 
databases of the former INS and the FBI. The report examined the case 
of Victor Manual Batres, a Mexican national with a criminal history who 
was twice simply returned to Mexico by Border Patrol agents whose 
database did not identify him as a wanted man. Batres eventually 
entered the country illegally, and then raped two nuns in Oregon, 
killing one. The Inspector General reported that the integration that 
would give Border Patrol agents access to the FBI database was 2 years 
behind schedule, and was not expected to be completed until 2008. Last 
week's report is the third OIG report in the last 4 years to highlight 
various aspects of this problem. (A) Why has progress on this issue 
been so slow? (B) When can we expect that Border Patrol agents will 
have access to the immigration and criminal histories in one database? 
(C) When will DHS enter into an MOU with DOJ about how this integration 
will happen?
    Answer. The Department of Homeland Security is committed to 
accelerating implementation of IDENT/IAFIS 10 fingerprint capability 
for enforcement processing at ports of entry, Border Patrol locations, 
and Immigration and Customs Enforcement offices.
    While we begin planning our implementation plan, we plan on using 
$4 million of the remaining funds provided in Public Law 107-117 
(fiscal year 2002 counter-terrorism funding) for potential use for 
IDENT/IAFIS implementation. The $4 million, when combined with fiscal 
year 2003 funds already provided ($3.5 million obligated for IDENT/), 
will allow BTS to implement IDENT with 10 print capabilities in 
secondary processing areas at 115 airports, 14 seaports and 50 of the 
largest land border ports. In addition, this funding will support 
implementation of the IAFIS/IDENT 10 print capability at 70 percent of 
the Border Patrol stations. The remaining land ports of entry, 30 
percent of the Border Patrol stations and major ICE locations (to be 
determined) will receive this capability early in calendar year 2005. 
Funding for fielding these capabilities is estimated to be 
approximately $3 million, but a clearer estimate will be provided as 
the planning and implementations proceed. Completing the implementation 
of IDENT/IAFIS at Border Patrol stations will provide the capability to 
biometrically identify and/or perform status verifications on 
individuals suspected of illegally crossing the border. Implementation 
at ICE offices will support investigation of individuals apprehended 
for overstays and/or watch list hits.
    The Department of Homeland Security will work with the Department 
of Justice to accelerate our integration into the FBI's IAFIS (10 
print, criminal history) and the legacy INS IDENT (2-print, 
immigration) systems. An integrated workstation has already been 
developed. It has been deployed to a limited number of sites. DHS 
intends to complete deployment of this capability in 2005.
                                 ______
                                 

               Question Submitted by Senator Patty Murray

    Question. Thank you Mr. Chairman.
    I'm pleased to join you, Senator Byrd, and the rest of our 
colleagues in welcoming Mr. Hutchinson today.
    He has been handed a tough task in a very difficult time. I know he 
is committed to keeping our country safe, and I thank him for his 
leadership.
    Mr. Hutchinson, the Federal Government--and specifically your 
Department--has done an admirable job of providing resources and 
training to help secure the threats to our Northern Border. As a result 
of increased activity on the border, more individuals are being 
apprehended for crimes at or near the border but handed over to local 
law enforcement.
    However, the prosecution, defense, court and detention costs are 
very high. And, our local governments have been left with the 
responsibility for providing law enforcement services to most areas at 
and near the international border.
    One example from Washington State is Whatcom County and the City of 
Blaine--the areas that rests on the Northern Border of Washington State 
on Interstate 5. This community is responsible for 112 miles of border, 
including 89-miles of a shared land border with Canada and a 23-mile 
coastal border.
    As you know, the Department of Homeland Security operates five land 
points-of-entry within the county. Additionally, there are three 
international airports and several marine ports of entry within Whatcom 
County's jurisdiction.
    Mr. Hutchinson, terrorists, armed drug and weapons smugglers, and 
wanted fugitives regularly traverse residential neighborhoods at or 
near the border, creating huge threats to public safety and demands on 
local law enforcement.
    In Whatcom County, more than 85 percent of all criminal 
apprehensions made by Federal law enforcement agents at or near our 
border are turned over to the county. In fact, last year Whatcom County 
spent approximately $3 million on Federal deferred cases, and this year 
they estimate their costs will rise to $4 million.
    In these difficult fiscal times for local communities these extra 
burdens are having serious impacts on their budgets. But unlike the 
communities of Buffalo and Detroit, my small, rural county is 
staggering under the increased pressure on its budget.
    Mr. Hutchinson, the Southwest Border Initiative provides financial 
support to communities along the southern border who are experiencing 
this very problem. However, Whatcom County, which is the least 
populated northern border county with a major crossing has seen no such 
relief.
    I can't stress to you enough the impact $4 million has on a 
community of this size.
    I believe a similar program should be established for Northern 
Border States, particularly those State that have high traffic volumes, 
such as Washington State.
    Mr. Hutchinson, are you aware of this inequity between southern and 
northern border communities, and how is your Department prepared to 
help?
    Answer. Senator Murray, thank you for bringing this important issue 
to my attention. As you know, some of the initiatives undertaken to 
improve homeland security have produced unintended consequences. 
Tighter border security should lead to more interdictions and arrests. 
But, while the National Strategy for Homeland Security specifies that 
costs and performance are to be a shared responsibility, we certainly 
are not advocating that local jurisdictions take on a disproportionate 
share of the burden in that regard. Therefore we welcome your reports 
that outline these potential inequities. I understand that the U.S. 
Attorney and our ICE officers have met with your county officials to 
find a more balanced approach to performing this important workload, 
including the prospects that the arrestee's initial appearance occur in 
the Bellingham Magistrate's Court. While those potential solutions may 
not lead to the full relief sought, they are a step in the right 
direction while the Federal budget addresses this increased workload.

                          SUBCOMMITTEE RECESS

    Senator Cochran. Our next hearing of the subcommittee on 
the budget request for the Department of Homeland Security will 
be held on Tuesday, March 23 in this same room. At that time 
the Commandant of the United States Coast Guard, Admiral Thomas 
Collins, and the Acting Administrator of the Transportation 
Security Administration, Mr. David Stone, will be here to 
discuss the budget request for the programs under their 
jurisdictions.
    Until then this subcommittee will stand in recess.
    [Whereupon, at 11:47 a.m., Tuesday, March 9, the 
subcommittee was recessed, to reconvene at 10 a.m., Tuesday, 
March 23.]

</pre></body></html>
